36818                      Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

TABLE 1.—LIST OF SAFETY AND EFFECTIVENESS SUMMARIES FOR APPROVED PMA’S MADE AVAILABLE JANUARY 1, 2000,
                                  THROUGH MARCH 31, 2000—Continued

    PMA Number/Docket No.                        Applicant                       Trade Name                         Approval Date

P850022(S9)/00M–0901               Biolectron Inc.                  SpinalPak Stimulator                    September 24, 1999
H990005/99M–4763                   Nitinol Medical Technologies     CardioSEAL Septal Occlusion System      September 28, 1999
P930034(S12)/00M–0424              Summit Technology                SVS Apex Plus Excimer Laser              October 21, 1999
                                                                      Workstation w/the Emphasis Discs
P910066(S11)/00M–1073              Orthologic Corp.                 OrthologicTM 1000 Bone Growth Stimu­     December 17, 1999
                                                                      lator
P990035/00M–0577                   Sunlight Ultrasound Tech­        The SunlightTM Omnisense Ultrasound      January 20, 2000
                                     nologies, Ltd.                   Bone Sonometer
P990066/00M–0579                   GE Medical Systems               Senographe 2000D                         January 28, 2000
H990011/00M–0599                   Nitinol Medical Technologies     CardioSEAL Septal Occlusion System      February 1, 2000
P980040/00M–0445                   Allergan Inc.                    Sensar Soft Acrylic UV–Light Absorbing   February 3, 2000
                                                                      Posterior Chamber Intraocular Lens
P990016/00M–0580                   McCue Corporation, Inc.          McCue CUBAClinical Ultraonic Bone        February 15, 2000
                                                                      Sonometry System w/CUBAplus+V4.1.0
P940034(S8)/00M–0578               Gen-Probe Incorporated           Gen-Probe AmplifiedTM Mycobacterium     February 15, 2000
                                                                      Tuberculosis Direct (MTD) Test
P900009(S6)/00M–0810               Smith & Nephew Inc.              Exogen 2000 or Sonic Accelerated Frac­   February 22, 2000
                                                                      ture Healing System
P990023/00M–0809                   Alcon Labs                       Cellugel Ophthalmic Viscosurgical De-   February 24, 2000
                                                                      vice
P950019(S9)/00M–1212               United States Surgical Corp.     Ray Threaded Fusion Cage (TFC) w/In­     March 2, 2000
                                                                      strumentation


  Dated: May 23, 2000.                             address: Office of Inspector General,       on the OIG’s belief that health care
Linda S. Kahan,                                    Department of Health and Human              providers and related entities can use
Deputy Director for Regulations Policy, Center     Services, Attention: OIG–7P–CPG, Room       internal controls more effectively to
for Devices and Radiological Health.               5246, Cohen Building, 330                   monitor adherence to applicable Federal
[FR Doc. 00–14702 Filed 6–9–00; 8:45 am]           Independence Avenue, S.W.,                  health care statutes, regulations and
BILLING CODE 4160–01–F                             Washington, D.C. 20201.                     program requirements.
                                                     We do not accept comments by                Copies of these compliance program
                                                   facsimile (FAX) transmission. In            guidances can be found on the OIG
DEPARTMENT OF HEALTH AND                           commenting, please refer to file code       website at http://www.hhs.gov/oig.
HUMAN SERVICES                                     OIG–7P–CPG. Comments received
                                                   timely will be available for public         Developing Draft Compliance Program
Office of Inspector General                        inspection as they are received,            Guidance for Individual and Small
                                                   generally beginning approximately 2         Group Physician Practices
Draft OIG Compliance Program for
                                                   weeks after publication of a document,        On September 8, 1999, the OIG
Individual and Small Group Physician
                                                   in Room 5541 of the Office of Inspector     published a solicitation notice seeking
Practices
                                                   General at 330 Independence Avenue,         information and recommendations for
AGENCY: Office of Inspector General                S.W., Washington, D.C. 20201 on             developing formal guidance for
(OIG), HHS.                                        Monday through Friday of each week          individual and small group physician
ACTION: Notice and comment period.                 from 8 a.m. to 4:30 p.m.                    practices (64 FR 48846). In response to
                                                   FOR FURTHER INFORMATION CONTACT:            that solicitation notice, the OIG received
SUMMARY:   This Federal Register notice            Kimberly Brandt, Office of Counsel to       83 comments from various outside
seeks the comments of interested parties           the Inspector General, (202) 619–2078.      sources. In developing this notice for
on draft compliance guidance                                                                   formal public comment, we have
                                                   SUPPLEMENTARY INFORMATION:
developed by the Office of Inspector                                                           considered those comments, as well as
General (OIG) for individual and small             Background                                  previous OIG publications, such as
group physician practices. Through this               By issuing compliance program            other compliance program guidance and
notice, the OIG is setting forth its               guidance, the OIG seeks to engage the       Special Fraud Alerts. In addition, we
general views on the value and                     private health care community in            have also taken into account
fundamental principles of individual               combating fraud and abuse. In the last      investigations and audits conducted by
and small group physician practices’               few years, the OIG has developed and        the OIG, and have consulted with the
compliance programs, and the specific              issued compliance program guidance          Health Care Financing Administration
elements that these practices should               directed at the following segments of the   and the Department of Justice.
consider when developing and                       health care industry: Hospitals; home         This draft compliance program
implementing an effective compliance               health agencies; clinical laboratories;     guidance for individual and small group
program.                                           third-party medical billing companies;      physician practices contains seven
DATES: To ensure consideration,                    suppliers of durable medical equipment,     elements that the OIG has determined
comments must be delivered to the                  prosthetics, orthotics and supplies;        are fundamental to an effective
address provided below by no later than            hospices; Medicare+Choice                   compliance program:
5 p.m. on July 27, 2000.                           organizations; and nursing facilities.        • Implementing written policies;
ADDRESSES: Please mail or deliver                  The development of these types of             • Designating a compliance officer/
written comments to the following                  compliance program guidance is based        contact;
                                Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                                        36819

  • Conducting comprehensive training                    mission of all physician practices 2 to                 A. Benefits of a Compliance Program
and education;                                           provide quality care to their patients.                   The OIG believes that physician
  • Developing accessible lines of                          Many physicians have expressed an                    practices can gain numerous benefits by
communication;                                           interest in better protecting their                     implementing an effective compliance
  • Conducting internal monitoring and                   practices from the potential for                        program. These benefits may include:
auditing;                                                fraudulent or erroneous conduct                           • The development of effective
                                                         through the implementation of
  • Enforcing standards through well-                    compliance programs. While the Office
                                                                                                                 internal procedures to ensure
publicized disciplinary guidelines; and                                                                          compliance with regulations, payment
                                                         of Inspector General (OIG) believes that                policies and coding rules;
  • Responding promptly to detected                      the great majority of physicians are                      • Improved medical record
offenses and undertaking corrective                      honest and share our goal of protecting                 documentation;
action.                                                  the integrity of Medicare and other                       • Improved education for practice
  These elements are contained in                        Federal health care programs, all health                employees;
previous guidance issued by the OIG. As                  care providers have a duty to ensure                      • A reduction in the denial of claims;
with previously-issued guidance, this                    that the claims submitted to Federal                      • More streamlined practice
draft compliance program guidance                        health care programs are true and                       operations through better
represents the OIG’s suggestions on how                  accurate. The development of effective                  communication and more
individual and small group physician                     compliance programs in physician                        comprehensive policies;
practices can best voluntarily establish                 practices will go a long way toward                       • The avoidance of potential liability
internal controls to prevent fraudulent                  achieving this goal.                                    arising from noncompliance; and
or other improper activities. The                           Through this document, the OIG                         • Reduced exposure to penalties.5
contents of this guidance are not                        provides its views on the fundamental                     An effective compliance program is
mandatory or binding, nor is this                        elements of physician practice                          essential for physician practices of all
guidance an exclusive discussion of the                  compliance programs, as well as the                     sizes and does not have to be costly or
advisable elements of a compliance                       principles that each physician practice                 resource-intensive. With the
program.                                                 should consider when developing and                     development of a formal program, a
                                                         implementing an effective compliance                    physician practice may find it easier to
Public Input and Comment in
                                                         program. While this document presents                   comply with its affirmative duty to
Developing Final Guidance
                                                         basic procedural and structural                         ensure the accuracy of claims submitted
  To ensure that all parties have an                     guidance for designing a compliance                     for reimbursement.
opportunity to provide input, we are                     program, it is not in and of itself a                   B. Application of Compliance Program
publishing this guidance in draft form,                  compliance program. Rather, it is a set                 Guidance
and welcome all comments from                            of guidelines that physician practices
interested parties. The OIG will                         should consider when developing and                        The OIG recognizes that there is no
consider all comments that are received                  implementing a compliance program.                      ‘‘one size fits all’’ compliance program,
within the above-cited time frame,                       As stated in previous guidance,3 these                  especially for physician practices. The
incorporate any specific                                 guidelines are not mandatory. Nor do                    applicability of these recommendations
recommendations, as appropriate, and                     they represent an exclusive document of                 will depend on the circumstances of the
prepare a final version of the guidance                  advisable elements of a compliance                      particular physician practice. Each
thereafter for publication in the Federal                program. They are a resource to be                      practice should undertake reasonable
Register.                                                considered in addition to other OIG                     steps to respond to each of the seven
                                                         outreach efforts, as well as other Federal              elements of this guidance, depending on
Draft Compliance Program Guidance                                                                                the size and resources of that practice.
                                                         agency efforts to promote compliance.4
for Individual and Small Group                                                                                      Compliance programs not only help to
Physician Practices                                         2 Much of this guidance can also apply to other      prevent fraudulent or erroneous claims,
I. Introduction                                          independent practitioners, such as psychologists,       but they may also show that the
                                                         physical therapists, speech language pathologists,      physician practice is making a good
   This compliance program guidance is                   and occupational therapists.                            faith effort to submit claims
                                                            3 Currently, the Office of Inspector General has
intended to assist individual and small                                                                          appropriately. Physician practices
                                                         issued compliance program guidance for the
group physician practices (‘‘physician                   following eight industry sectors: hospitals, clinical   should view compliance programs as
practices’’) 1 in developing and                         laboratories, home health agencies, durable medical     analogous to practicing preventive
implementing internal controls and                       equipment suppliers, third-party medical billing        medicine.
procedures that promote adherence to                     companies, hospices, Medicare+Choice
                                                         organizations offering coordinated care plans, and
                                                                                                                    An effective compliance program also
statutes and regulations applicable to                   nursing facilities. All of the guidance is available    sends an important message to a
the Federal health care programs                         on the OIG website at http://www.hhs.gov/oig in         physician practice’s employees that
(‘‘Federal health care program                           the Electronic Reading Room, or by calling the OIG      while the practice recognizes that
requirements’’) and private insurance                    Public Affairs office at (202) 619–1343.
                                                            4 The OIG periodically issues Advisory Opinions
                                                                                                                 mistakes will occur, employees have an
program requirements. Compliance                                                                                 affirmative, ethical duty to come
                                                         responding to specific inquiries concerning the
programs strengthen the efforts of                       application of the OIG’s authorities, in particular,
Government and the private sector to                     the anti-kickback statute, and Special Fraud Alerts        5 The OIG, for example, will consider the

prevent and reduce improper conduct.                     setting forth activities that raise legal and           existence of an effective compliance program that
These programs can also further the                      enforcement issues. These documents, as well as         pre-dated any governmental investigation when
                                                         reports from the OIG’s Office of Audit Services         addressing the appropriateness of administrative
                                                         (OAS) and Office of Evaluation and Inspections          sanctions. However, the burden is on the physician
   1 For the purpose of this guidance, the term          (OEI) can be obtained on the Internet at: http://       practice to demonstrate the operational
‘‘physician’’ is defined as: (1) A doctor of medicine    www.hhs.gov/oig. We also recommend that                 effectiveness of the compliance program. See 62 FR
or osteopathy; (2) a doctor of dental surgery or of      physician practices regularly review the Health         67392. In addition, criminal sanctions may be
dental medicine; (3) a podiatrist; (4) an optometrist;   Care Financing Administration (HCFA) website on         mitigated by an effective compliance program that
or (5) a chiropractor, all of whom must be               the Internet at http://www.hcfa.gov, for up-to-date     was in place at the time of the criminal offense. See
appropriately licensed by the State. 42 U.S.C.           regulations, manuals, and program memoranda             United States Sentencing Commission Guidelines,
1395x(r).                                                related to the Medicare and Medicaid programs.          Guidelines Manual, 8 A1.2, Application Note 3(d).
36820                          Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

forward and report fraudulent or                      negligence. When billing errors, honest              staff meetings regarding fraudulent or
erroneous conduct, so that it may be                  mistakes, or negligence result in                    erroneous conduct issues and
corrected.                                            erroneous claims, the physician practice             community bulletin boards, to keep
                                                      will be asked to return the funds                    practice employees updated regarding
C. The Difference Between Fraudulent
                                                      erroneously claimed, but without                     compliance activities;
and ‘‘Erroneous’’ Claims to Federal
Health Programs
                                                      penalties. In other words, erroneous                    • Enforcing disciplinary standards by
                                                      claims result only in the return of funds            making clear or ensuring employees are
  There appear to be significant                      claimed in error.                                    aware that compliance is treated
misunderstandings among physicians                       Fourth, innocent billing errors are a             seriously and that violations will be
regarding the critical differences                    significant drain on the programs and                dealt with consistently and uniformly;
between fraudulent (intentionally or                  all parties (physicians, providers,                  and
recklessly false) health care claims on               carriers, fiscal intermediaries,
the one hand and innocent ‘‘erroneous’’               Government agencies, and beneficiaries)                 • Responding appropriately to
claims on the other. Some physicians                  need to work cooperatively to reduce                 detected violations through the
feel that Federal law enforcement                     the overall error rate. But again, it                investigation of allegations and the
agencies have maligned medical                        should be emphasized that civil or                   disclosure of incidents to appropriate
professionals and are focused on                      criminal penalty action will not be                  Government entities.
innocent billing errors. These                        initiated with respect to billing errors                The OIG recognizes that full
physicians are under the impression                   due to inadvertence or negligence, or for            implementation of all elements may not
that innocent billing errors can subject              billings based on a negligent medical                be feasible for all physician practices.
them to civil penalties, or even jail.                judgment.                                            However, as a first step, a good faith
These feelings and impressions are                       Finally, it is reasonable for physicians          meaningful commitment to compliance
mistaken.                                             (and other providers) to ask: what duty              will substantially contribute to the
  To these concerns, OIG would like to                do they owe the Federal health care                  program’s successful implementation.
make the following points. First, we do               programs? The answer is that all health              Smaller practices should consider
not disparage physicians, other medical               care providers have a duty to reasonably             addressing each of the elements in a
professionals or medical enterprises. In              ensure that the claims submitted to                  manner that best suits the practice. By
our view, the great majority of them are              Medicare and other Federal health care               contrast, larger practices should address
working ethically to render high quality              programs are true and accurate. The OIG              the elements in a more systematic
medical care to our Medicare                          continues to engage the provider                     manner. For example, larger practices
beneficiaries and to submit proper                    community in an extensive, good faith                can use both this guidance and the
claims to Medicare.                                   effort to work cooperatively on                      Third-Party Medical Billing Compliance
  Second, under the law, physicians are               voluntary compliance to minimize                     Program Guidance to create a
not subject to civil or criminal penalties            errors and to prevent potential penalties            compliance program unique to the
for innocent errors, or even negligence.              for improper billings before they occur.             practice.10
The Government’s primary enforcement                  We encourage all physicians and other                   The OIG recognizes that physician
tool, the civil False Claims Act, covers              providers to join in this effort.                    practices need to find the best way to
only offenses that are committed with                                                                      achieve compliance for their given
                                                      II. Compliance Program Elements
actual knowledge of the falsity of the                                                                     circumstances. Specifically, the OIG
claim, reckless disregard, or deliberate              A. The Seven Basic Compliance                        encourages physician practices to
ignorance of the falsity of the claim.6               Elements                                             participate in other compliance
The False Claims Act simply does not                     The OIG believes that every effective             programs, such as the compliance
cover mistakes, errors, or negligence.                compliance program should begin with                 programs of the hospitals or other
The other major civil remedy available                a commitment by the physician practice               settings in which the physicians
to the Federal Government, the Civil                  to address all of the applicable elements            practice. A physician’s participation in
Monetary Penalties Law, has exactly the               listed below, which are based on the                 another provider’s compliance program
same standard of proof.7 The OIG is                   seven elements set forth in the Federal              could be a way, at least partly, to satisfy
very mindful of the difference between                Sentencing Guidelines: 9                             recommended elements of the
innocent errors (‘‘erroneous claims’’) on                • Establishing compliance standards               physician’s or physician practice’s own
one hand, and reckless or intentional                 through the development of a code of                 compliance program. The OIG
conduct (‘‘fraudulent claims’’) on the                conduct and written policies and                     encourages this type of collaborative
other. For criminal penalties, the                    procedures;                                          effort, where the content is appropriate
standard is even higher—criminal intent                  • Assigning compliance monitoring                 to the setting involved, because it
to defraud must be proved beyond a                    efforts to a designated compliance                   provides a means to promote the desired
reasonable doubt. The Attorney General                officer or contact;                                  objective without imposing an undue
of the United States has stated, ‘‘[i]t is               • Conducting comprehensive training               burden or requiring physicians to
not the [Justice Department’s] policy to              and education on practice ethics and                 undertake duplicative action.
punish honest billing mistakes * * *                  policies and procedures;
[or] mere negligence. * * * These are                    • Conducting internal monitoring and              B. Written Policies and Procedures
not cases where we are seeking to                     auditing focusing on high-risk billing
                                                      and coding issues through performance                  Any effective compliance program
punish someone for honest billing                                                                          should have compliance standards and
mistakes.’’ 8                                         of periodic audits;
                                                         • Developing accessible lines of                  procedures that will be followed by the
  Third, even ethical physicians (and                                                                      practice and that describe the lines of
their staffs) make billing mistakes and               communication, such as discussions at
                                                                                                           responsibility for implementing the
errors through inadvertence or                          9 See United States Sentencing Commission          compliance program. Those standards
  6 31
                                                      Guidelines, Guidelines Manual, 8 A1.2, Application   and procedures should be reasonably
      U.S.C. 3729.                                    Note 3(k). The Federal Sentencing Guidelines are
  7 42
                                                                                                           capable of reducing the prospect of
      U.S.C. 1320a–7a.                                detailed policies and practices for the Federal
  8 Reno Willing to Work With Hospitals to Ensure     criminal justice system that prescribe the
Proper Use of False Claims Act, 6 Health Care Pol’y   appropriate sanctions for offenders convicted of      10 Available on the OIG website at http://

Rep. 261 (1998).                                      Federal crimes.                                      www.hhs.gov/oig.
                        Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                               36821

fraudulent activity while also helping to   issue, the OIG recommends that a                      request. If individualized copies of this
identify any incorrect billing practices.   physician practice focus first on those               handbook are not made available to all
                                            risk areas most likely to arise in its                employees, then a reference copy
1. Code of Conduct
                                            particular practice.11 Additionally, if               should be available in a readily
   Developing standards of conduct is       the physician practice relies on a                    accessible location.
the first step to an effective compliance   physician practice management                           If updates to the policies and
program. A good way to begin creating       company (PPMC) or management                          procedures are necessary, those updates
a standard of conduct for a physician       services organization (MSO), the                      should be given to employees. New
practice is by looking at the standards     practice can incorporate the compliance               employees should receive both the code
of conduct implemented by other             policies of those entities, if appropriate,           of conduct and policies when hired and
physician practices and/or by requesting    into its own policies.                                be trained on their contents
information from professional                  Physician practices can meet the goal              immediately thereafter. As part of the
associations to get ideas as to the items   of developing policies and procedures                 compliance effort, the distribution of the
to include in a standard of conduct.        by: (1) Developing a written compliance               code and policies should be
However, it is important that the           manual; and (2) updating clinical forms               documented.
physician practice not simply copy          periodically to make sure they elicit the
another practice’s standards. The                                                                 3. Specific Risk Areas
                                            data required for the different levels of
standards of conduct for the physician      coding. All written policies and                         The OIG recognizes that many
practice should be specific to that         procedures should be tailored to the                  physician practices may not have in
practice. This can be accomplished by       physician practice where they will be                 place policies and procedures to prevent
tailoring the standards of conduct to       applied.                                              fraudulent or erroneous conduct in their
address the particularized needs of the        Areas in which a policy may be                     practices. In order to develop policies
practice.                                   helpful to the practice include:                      and procedures, the physician practice
   The practice’s expectations with            • Employee hiring and retention;                   should determine what types of fraud
respect to billing and coding, patient         • Creation and maintenance of                      and abuse related topics need to be
care, documentation, and payer              encounter forms, including the                        addressed based on its specific needs.
relationships should be made clear to       registration form, history and physical               One of the most important things in
practice employees in the form of a code    form and charge master (superbill and                 making that determination is a listing of
of conduct. This can also be succinctly     patient statement);                                   risk areas where the practice may be
stated in a practice mission statement.        • Coding and billing competency and                vulnerable.
For example, employees should be told       responsibilities;                                        To assist physician practices in
that the practice bills only for services      • Correct coding initiatives;                      performing this initial assessment, the
that are actually rendered, codes              • Patient outreach and                             OIG has developed a list of potential
accurately, documents medical               communication;                                        risk areas affecting physician providers.
necessity and appropriateness, and             • General marketing; and                           These risk areas include: (a) Coding and
adheres to all payer contracts.                • Patient quality of care.                         billing; (b) reasonable and necessary
   The concept of commitment to                                                                   services; (c) documentation and (d)
                                               Creating a resource manual from
compliance is different from the mere                                                             improper inducements, kickbacks and
                                            publicly available information may be a
existence of written policies and                                                                 self-referrals. This list of risk areas is not
                                            cost-effective approach for developing
procedures. This commitment should be                                                             exhaustive, or all encompassing. Rather,
                                            policies and procedures. For example,
clearly established during training and                                                           it should be viewed as a starting point
                                            the practice can develop a ‘‘binder’’ that
in the practice’s policies. Everyone in                                                           for an internal review of potential
                                            contains the practice’s written policies
the practice should understand the                                                                vulnerabilities within the physician
                                            and procedures, relevant HCFA
obligation to comply with the applicable                                                          practice.13 The objective of such an
                                            directives and carrier bulletins, and
standards. They should be informed and                                                            assessment should be to ensure that key
                                            summaries of informative OIG
understand that the organization will                                                             personnel in the physician practice is
                                            documents (e.g., Special Fraud Alerts,
take actions to uphold those standards.                                                           aware of these risk areas and that steps
                                            Advisory Opinions, inspection and
Upon development, the code of conduct                                                             are taken to minimize, to the extent
                                            audit reports). This binder should be
and policies should be distributed and/                                                           possible, the types of problems
                                            regularly updated and should be
or made continually available to all                                                              identified. While there are many ways
                                            accessible to all employees. It could also
employees, contractors and agents, once                                                           to accomplish this objective, clear
                                            include a summary of the relevant
implemented. These materials should be                                                            written policies and procedures that are
                                            reimbursement requirements of Federal
reviewed at least annually and revised                                                            communicated to all employees are
                                            and private payer plans (including those
as necessary.                                                                                     important to ensure the effectiveness of
                                            relating to reasonable and necessary
2. Policies and Procedures                  services, coding and documentation).12                a compliance program. Specifically, the
                                            In the case of more technical materials,              following are discussions of risk areas
   The code of conduct should be                                                                  for physicians: 14
reinforced with basic policies              it may be advisable to provide
reaffirming the key points in the code of   summaries in the handbook and make                       13 The OIG recommends that, in addition to the

conduct. The practice’s policies should     the source documents available upon                   list set forth below, physicians review the OIG’s
explain in clear and plain language the                                                           Work Plan to identify vulnerabilities and risk areas
                                               11 Practices with laboratories or arrangements     on which the OIG will focus in the future. In
procedures by which compliance              with third-party billing companies should check the   addition, it is recommended that physician
measures are to be incorporated into        risk areas included in the guidance for those         practices review the OIG’s semiannual reports,
standard operating practices.               industries. The guidance is available on the OIG      which identify program vulnerabilities and risk
   The OIG believes that written policies   website at http://www.hhs.gov/oig.                    areas that the OIG has targeted during the preceding
and procedures are essential to all            12 There are many published summaries of           six months. All of these documents are available on
                                            reimbursement requirements of varying specificity     the OIG’s webpage at http://www.hhs.gov/oig.
physician practices, regardless of size     and quality. Various specialty and trade                 14 A listing of additional risk areas that a
and capability. If a lack of resources to   associations may also have developed such             physician practice may want to include in its
develop such policies is genuinely an       summaries.                                                                                       Continued
36822                           Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

   a. Coding and Billing. The                               • Upcoding the level of service                      tests, including screening tests, they
identification of risk areas associated                  provided.21                                             believe are appropriate for the treatment
with coding and billing should be a                         The written policies and procedures                  of their patients. However, the
major part of any physician practice’s                   concerning proper coding should reflect                 physician practice should be aware that
compliance program.                                      the current reimbursement principles                    Medicare will only pay for services that
   The following risk areas associated                   set forth in applicable statutes,                       meet the Medicare definition of
with billing have been among the most                    regulations 22 and Federal, State or                    reasonable and necessary.24
frequent subjects of investigations and                  private payer health care program                          Medicare (and many insurance plans)
audits by the OIG:                                       requirements and should be developed                    may deny payment for a service that the
   • Billing for items or services not                   in tandem with coding and billing                       physician believes is clinically
rendered or not provided as claimed;15                   standards used in the physician                         appropriate, but which is not reasonable
   • Submitting claims for equipment,                    practice. Furthermore, written policies                 and necessary. Thus, when a physician
medical supplies and services that are                   and procedures should ensure that                       provides services to a patient, he or she
not reasonable and necessary;16                          coding and billing are based on medical                 should only bill those services believed
   • Double billing;17                                   record documentation. Particular                        to be reasonable and necessary for the
   • Billing for non-covered services as                 attention should be paid to issues of                   diagnosis and treatment of a patient.
if covered;                                              appropriate diagnosis codes and                         Upon request, the physician practice
   • Knowing misuse of provider                          individual Medicare Part B claims                       should be able to provide
identification numbers, which results in                 (including documentation guidelines for                 documentation, such as a patient’s
improper billing;18                                      evaluation and management services).23                  medical records and physician’s orders,
   • Billing for unbundled services;19                   The physician practice should also                      to support the appropriateness of a
   • Failure to properly use coding                      institute a policy that all rejected claims             service that the physician has provided.
modifiers;20                                             pertaining to diagnosis and procedure                      c. Documentation. Timely, accurate
                                                         codes be reviewed by the coder. This                    and complete documentation is critical
policies can be found at Appendix A of this              should facilitate a reduction in similar
document.
                                                                                                                 to nearly every aspect of a physician
   15 For example, Dr. X, an ophthalmologist, bills
                                                         errors.                                                 practice. Therefore, one of the most
for laser surgery he did not perform. As proof, he          b. Reasonable and Necessary Services.                important physician practice
did not even have laser equipment or access to such      The compliance program should                           compliance issues is the appropriate
equipment at the place of service designated on the      provide guidance that claims be                         documentation of diagnosis and
claim form to perform the surgery.                       submitted only for services that the
   16 Billing for services which are not reasonable                                                              treatment. Physician documentation is
and necessary, supplies and equipment involves
                                                         physician practice finds to be                          necessary to determine the appropriate
seeking reimbursement for a service that is not          reasonable and necessary in the                         medical treatment for the patient and is
warranted by a patient’s documented medical              particular case. The OIG recognizes that                the basis for coding and billing
condition. See 42 U.S.C. 1395i(a)(1)(A) (‘‘no            physicians should be able to order any                  determinations. Most importantly,
payment may be made under part A or part B [of
Medicare] for any expenses incurred for items or                                                                 failure to document properly has the
services which * * * are not reasonable and              should also consult the National Correct Coding         potential to compromise good patient
necessary for the diagnosis or treatment of illness      Initiative (NCCI) system. See Appendix F for
                                                         information on how to access the NCCI system. The       care. Thorough and accurate
or injury or to improve the functioning of the
malformed body member’’). See also Appendix A
                                                         NCCI coding edits are updated on a quarterly basis      documentation helps to ensure accurate
                                                         and are used to process claims and determine            recording and timely transmission of
for further discussion on this topic.
                                                         payments to physicians.
   17 Double billing occurs when the physician bills
                                                           21 Upcoding is billing for a more expensive
                                                                                                                 information.
for the same item or service more than once or
                                                         service than the one actually performed. For
                                                                                                                    i. Medical Record Documentation. In
when another party bills the Federal health care                                                                 addition to facilitating high quality
                                                         example, Dr. X defrauds Medicare by intentionally
program for an item or service also billed by the
physician. Although duplicate billing can occur due
                                                         billing at a higher evaluation and management (E        patient care, a properly documented
                                                         & M) code than what he actually renders to the          medical record verifies and documents
to simple error, the knowing submission of
                                                         patient. Upcoding has been a major focus of the
duplicate claims—which is sometimes evidenced
                                                         OIG’s law enforcement efforts. In fact, the Health      precisely what services were actually
by systematic or repeated double billing—can create      Insurance Portability and Accountability Act of         provided. The medical record may be
liability under criminal, civil, and/or administrative
law.
                                                         1996 added another civil monetary penalty to the        used to validate: (a) The site of the
                                                         OIG’s sanction authorities for upcoding violations.     service; (b) the appropriateness of the
   18 Of particular concern, physician practices
                                                         See 42 U.S.C. 1320a–7a(a)(1)(A).
should be aware of the provisions of reassignment          22 The official coding guidelines are promulgated     services provided; and (c) the accuracy
of benefits. These provisions govern who may             by HCFA, the National Center for Health Statistics,     of the billing. Accurate medical record
receive payment due to a provider or supplier of         the American Medical Association and the                documentation should comply, at a
services or a beneficiary. See 42 CFR 424.70–            American Health Information Management
424.80. See also Medicare Carrier Manual                                                                         minimum, with the following
                                                         Association. See International Classification of
§ 3060.10.                                               Diseases, 9th Revision, Clinical Modification (ICD–     principles: 25
   19 Unbundling is the practice of a physician
                                                         9 CM) (and its successors); 1998 Health Care               • The medical record should be
billing for multiple components of a service that        Financing Administration Common Procedure               complete and legible;
must be included in a single fee. For example, if        Coding System (HCPCS) (and its successors); and            • The documentation of each patient
dressings and instruments are included in a fee for      Physicians’ Current Procedural Terminology (CPT).
a minor procedure, the provider may not also bill                                                                encounter should include the reason for
                                                         In addition, there are specialized coding systems for
separately for the dressings and instruments.            specific segments of the health care industry.          the encounter; any relevant history;
   20 A modifier, as defined by the CPT–4 manual,        Among these are ADA (for dental procedures), DSM        physical examination findings; prior
provides the means by which the physician practice       IV (psychiatric health benefits) and DMERCs (for        diagnostic test results; assessment,
can indicate a service or procedure that has been        durable medical equipment, prosthetics, orthotics
performed has been altered by some specific              and supplies).
                                                                                                                 clinical impression, or diagnosis; plan
circumstance, but not changed in its definition or         23 The failure of a physician practice to: (i)
                                                                                                                   24 See 42 U.S.C. 1395y(a)(1)(A).
code. Assuming the modifier is used correctly and        document items and services rendered; and (ii)
appropriately, this specificity provides the             properly submit them for reimbursement is a major         25 For additional information on proper
justification for payment for those services. For        area of potential fraudulent or erroneous conduct       documentation, physician practices should also
correct use of modifiers, the physician practice         involving Federal health care programs. The OIG         reference the Documentation Guidelines for
should reference the appropriate sections of the         has undertaken numerous audits, investigations,         Evaluation and Management (E and M) Services,
Medicare Carrier Manual. See Medicare Carrier            inspections and national enforcement initiatives        published by HCFA. These guidelines are available
Manual § 4630. For general information on the            aimed at reducing potential and actual fraud, abuse     on the Internet at http://www.hcfa.gov/medicare/
correct use of modifiers, the physician practice         and waste in these areas.                               mcarpti.htm.
                                Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                                       36823

of care; and date and legible identity of               illegal because it can distort medical                      • Joint ventures with entities
the observer;                                           decision-making, cause overutilization                   supplying goods or services to the
  • If not documented, the rationale for                of services or supplies, increase costs to               physician practice or its patients;33
ordering diagnostic and other ancillary                 Federal health care programs, and result                    • Consulting contracts or medical
services should be easily inferred by an                in unfair competition by shutting out                    directorship;
independent reviewer or third party.                    competitors who are unwilling to pay it.                    • Office and equipment leases with
Past and present diagnoses should be                    Remuneration for referrals can also                      entities to which the physician refers;
accessible to the treating and/or                       affect the quality of patient care by                    and
consulting physician; and                               encouraging physicians to order services                    • Soliciting, accepting or offering any
  • Appropriate health risk factors                     or supplies based on profit rather than                  gift or gratuity of more than nominal
should be identified. The patient’s                     the patients’ best medical interests.28                  value to or from those who may benefit
progress, his or her response to, and any                  In particular, arrangements with                      from a physician practice’s referral of
changes in, treatment, and any revision                 hospitals, hospices, nursing facilities,                 Federal health care program business.34
in diagnosis should be documented.                      home health agencies, durable medical                       In order to keep current with this area
  The CPT and ICD–9–CM codes                            equipment suppliers and vendors are                      of the law, a physician practice may
reported on the health insurance claims                 areas of potential concern. In general the               obtain copies, available on the OIG
form should be supported by                             anti-kickback statute prohibits knowing                  website, of all relevant OIG Special
documentation in the medical record                     and willfully giving or receiving                        Fraud Alerts and Advisory Opinions
and the medical chart should contain all                anything of value to induce referrals of
required information. Additionally,                                                                              that address the application of the anti-
                                                        Federal health care program business. It                 kickback and physician self-referral
HCFA and the local carriers should be                   is generally recommended that all
able to determine who provided the                                                                               laws to ensure that the policies reflect
                                                        business arrangements wherein                            current positions and opinions.35
services. These issues can be the root of               physician practices refer business to an
investigations of inappropriate or                                                                                  4. Retention of Records. A physician
                                                        outside entity should be on a fair market                practice’s policies and procedures
erroneous conduct, and have been                        value basis.29 Whenever a physician
identified by HCFA and OIG as a                                                                                  should also contain a section on the
                                                        practice intends to enter into a business                retention of compliance, business and
leading cause of inappropriate                          arrangement that involves its making
payments.                                                                                                        medical records. These records
                                                        referrals, the arrangement should be                     primarily include documents relating to
  ii. HCFA 1500 Form. Another
                                                        reviewed by counsel familiar with the                    patient care and the practice’s business
documentation area that physician
                                                        anti-kickback statute and physician self-                activities. The physician practice’s
practices should monitor closely is the
                                                        referral statute.                                        designated compliance officer should
proper completion of the HCFA 1500                         In addition to developing policies to
form. The following practices will help                                                                          keep an updated binder or record of
                                                        address arrangements with other health                   compliance-related activities. This
ensure that the form has been properly                  care providers and suppliers, physician
completed:                                                                                                       involves, at a minimum, keeping track
                                                        practices should implement measures to
  • Link the diagnosis code with the                                                                             of compliance meetings, educational
                                                        avoid offering inappropriate                             activities, and internal audit results.
steps taken to perform an examination
and the record of personal history                      inducements to patients.30 Examples of                   Particular attention should be paid to
obtained;                                               such inducements include routinely                       documenting violations uncovered by
  • Link a single most appropriate                      waiving coinsurance or deductible                        the compliance program and the
diagnosis with the corresponding                        amounts without a good faith                             resulting remedial action.
procedure code;                                         determination that the patient is in
  • Use modifiers appropriately; and                    financial need or failing to make
                                                                                                                 program business or to whom the doctor is in such
  • Provide Medicare with all                           reasonable efforts to collect the cost-                  a position to influence should be reviewed to avoid
information about a patient’s other                     sharing amount.31                                        violation of the anti-kickback, self-referral, and
insurance coverage.                                        Possible risk areas that should be                    other relevant Federal and State laws. The OIG has
                                                        addressed in the policies and                            published safe harbors that define practices not
  d. Kickbacks, Inducements and Self-                                                                            subject to the anti-kickback statute, because such
Referrals. A physician practice should                  procedures include:                                      arrangements would be unlikely to result in fraud
have policies and procedures to ensure                     • Financial arrangements with                         or abuse. Failure to comply with a safe harbor
compliance with the anti-kickback                       outside entities to whom the practice                    provision does not make an arrangement per se
                                                        may refer Federal health care program                    illegal. Rather, the safe harbors set forth specific
statute,26 and the physician self-referral                                                                       conditions that, if fully met, would assure the
law.27 Remuneration for referrals is                    business;32                                              entities involved of not being prosecuted or
                                                                                                                 sanctioned for the arrangement qualifying for the
                                                          28 See Appendix B for additional information on
  26 The anti-kickback statute provides criminal                                                                 safe harbor. One such safe harbor applies to
penalties for individuals and entities that             the anti-kickback statute.                               personal services contracts. See 42 CFR
                                                          29 The OIG’s definition of ‘‘fair market value’’ is    1001.952(d).
knowingly offer, pay, solicit, or receive bribes or
kickbacks or other remuneration in order to induce      not the typical commercial definition of this term.         33 See OIG Special Fraud Alert ‘‘Joint Venture

business reimbursable by Federal health care            The OIG’s definition of this term excludes any           Arrangements’’ (August 1989) available on the OIG
programs. See 42 U.S.C. 1320a–7b(b). Civil              value attributable to referrals of Federal program       website at http://www.hhs.gov/oig. See also OIG
penalties, exclusion from participation in the          business on the ability to influence the flow of such    Advisory Opinion 97–5.
Federal health care programs, and civil False           business. Adhering to the rule of keeping business          34 Physician practices should establish clear

Claims Act liability may also result from a violation   arrangements at fair market value is not a guarantee     policies governing gift-giving because such
of the prohibition. See 42 U.S.C. 1320a–7a(a)(5), 42    of legality, but is a highly useful general rule.        exchanges may be viewed as inducements to
                                                          30 See 42 U.S.C. 1128A(a)(5).
U.S.C. 1320a–7(b)(7), and 31 U.S.C. 3729–3733.                                                                   influence business decisions. Practice policies
  27 The physician self-referral law, 42 U.S.C.           31 In the OIG Special Fraud Alert ‘‘Routine            should emphasize that accepting gifts of any kind
1395nn, (also known as the ‘‘Stark law’’), prohibits    Waiver of Part B Co-payments/ Deductibles’’ (May         may influence the employee’s independent
a physician from making a referral to an entity with    1991), the OIG describes several reasons why             judgment. To the extent such gifts are accepted,
which the physician or any member of the                routine waivers of these cost-sharing amounts pose       they should be reported to the designated person
physician’s immediate family has a financial            concerns. The Alert sets forth the circumstances         charged with recording such information for the
relationship if the referral is for the furnishing of   under which it may be appropriate to waive these         practice.
designated health services, unless the financial        amounts. See also 42 U.S.C. 1320a–7a(a)(5).                 35 Practices should also check the HCFA website

relationship fits into an exception set forth in the      32 All physician contracts and agreements with         for the most recent regulations regarding these
statute or implementing regulations.                    parties in a position to influence Federal health care   issues.
36824                           Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

   Physician practices that implement a                  following record retention guidelines        outsource all or part of the functions of
compliance program should provide for                    should be followed:                          a compliance officer to a third party,
the development and implementation of                       • The length of time that a               such as a consultant, PPMC, MSO,
a records retention system. This system                  physician’s medical record                   Independent Physician Association,
should establish policies and                            documentation is to be retained should       billing company or professional
procedures regarding the creation,                       be specified in the physician practice’s     association. However, if this role is
distribution, retention, and destruction                 policies and procedures (Federal and         outsourced, the compliance officer
of documents. In designing a record                      State statutes should be consulted for       should have sufficient interaction with
system, privacy concerns and Federal                     specific time frames);                       the physician practice to be able to
and State regulatory requirements                           • Medical records should be secured       effectively serve as the compliance
should be taken into consideration. In                   against loss, destruction, unauthorized      officer. Outsourced compliance officers,
addition to maintaining appropriate and                  access, unauthorized reproduction,           who spend most of their time offsite,
thorough medical records on each                         corruption, or damage; and                   will naturally have certain limitations
patient, the OIG recommends that the                        • Policies and procedures should          that a physician practice should
system include the following types of                    stipulate the disposition of medical         consider before making such a critical
documents:                                               records in the event the practice is sold    decision.
   • All records and documentation                       or closed.                                      The primary responsibilities assigned
(e.g., billing and claims documentation)                 C. Designation of a Compliance Officer/      to a compliance officer/contact should
required for participation in Federal,                   Contact                                      include the following:
State, and private payer health care                                                                     • Overseeing and monitoring the
                                                            To administer the compliance              implementation of the compliance
programs; and                                            program, the practice should designate       program;
   • All records necessary to                            an individual who is responsible for            • Establishing methods, such as
demonstrate the integrity of the                         overseeing the compliance program.           periodic audits, to improve the
physician practice’s compliance process                  This person, often called a ‘‘compliance     practice’s efficiency and quality of
and to confirm the effectiveness of the                  officer,’’ may have duties in addition to    services, and to reduce the practice’s
program.36                                               serving in this role. This person could      vulnerability to fraud and abuse;
   While conducting its compliance                       be the office manager or the primary            • Periodically revising the
activities, as well as its daily operations,             biller. The key, however, is that the        compliance program in light of changes
a physician practice should document                     person be sufficiently independent in        in the needs of the practice or changes
its efforts to comply with applicable                    his or her position so as to protect         in the law and in the policies and
Federal health care program                              against any conflicts of interest that may   procedures of Government and private
requirements. For example, when a                        arise from performing assigned duties        payer health plans;
physician practice requests advice from                  and compliance duties. Additional               • Developing, coordinating and
a Government agency (including a                         attributes and qualifications that this      participating in a training program that
Medicare fiscal intermediary or carrier)                 person should possess include:               focuses on the elements of the
charged with administering a Federal                        • Attention to detail;                    compliance program, and seeks to
health care program, the practice should                    • Experience in billing and coding;       ensure that training materials are
document and retain a record of the                      and                                          appropriate;
request and any written or oral                             • Effective communication skills,            • Ensuring that the HHS–OIG’s List of
response. This step is extremely                         both oral and written, with employees,       Excluded Individuals and Entities, and
important if the practice intends to rely                physicians and carriers.                     the General Services Administration’s
on that response to guide it in future                      It is acceptable for a physician          List of Parties Debarred from Federal
decisions, actions, or claim                             practice to designate more than one          Programs have been checked with
reimbursement requests or appeals. A                     employee with compliance monitoring          respect to all employees, medical staff
log of oral inquiries between the                        responsibility. In lieu of having a          and independent contractors;37
practice and third parties, such as                      designated compliance officer, the              • Ensuring that employees and
carrier representatives, will help the                   physician practice could instead             physicians know, and comply with,
practice document its attempts at                        describe in its policies and procedures      pertinent Federal and State statutes,
compliance. In addition, in a                            the compliance functions for which           regulations and standards;
subsequent investigation these records                   designated employees, known as
may become relevant to the issue of                      ‘‘compliance contacts,’’ would be               37 The HHS–OIG ‘‘List of Excluded Individuals/

whether the practice’s reliance was                      responsible. For example, one employee       Entities’’ provides information to health care
                                                         could be responsible for preparing           providers, patients, and others regarding
‘‘reasonable’’ and whether it exercised                                                               individuals and entities that are excluded from
due diligence in developing procedures                   written policies and procedures, while       participation in Federal health care programs. This
and practices to implement the advice.                   another could be responsible for             report, in both an on-line searchable and
   In short, all physician practices,                    conducting or arranging for periodic         downloadable database, can be located on the
                                                         audits and ensuring that billing             Internet at http://www.hhs.gov/oig. The OIG
regardless of size, should have                                                                       sanction information is readily available to users in
procedures to create and retain                          questions are answered. Therefore, the       two formats on over 15,000 individuals and entities
appropriate documentation. The                           compliance-related responsibilities of       currently excluded from program participation
                                                         the designated person or persons may be      through action taken by the OIG. The on-line
                                                         only a portion of his or her duties.         searchable database allows users to obtain
  36 Among the materials useful in documenting the                                                    information regarding excluded individuals and
compliance program are employee certifications
                                                            Another possibility is that one           entities sorted by: (1) The legal bases for exclusions;
relating to training and other compliance initiatives,   individual could serve as compliance         (2) the types of individuals and entities excluded
copies of compliance training materials, and any         officer for more than one entity. In         by the OIG; and (3) the States where excluded
corresponding reports of investigation, outcomes,        situations where staffing limitations        individuals reside or entities do business. In
and employee disciplinary actions. In addition, the                                                   addition, the General Services Administration
physician practice should keep all relevant
                                                         mandate that the practice cannot afford      maintains a monthly listing of debarred contractors,
correspondence with carriers, private payer              to designate a person(s) to oversee          ‘‘List of Parties Debarred from Federal Programs,’’
insurers, and HCFA.                                      compliance activities, the practice could    at http://www.arnet.gov/epls.
                             Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                       36825

   • Investigating any report or                 understand that compliance is a             3. Format of the Training Program
allegation concerning possible unethical         condition of continued employment.             Training may be conducted either in-
or improper business practices, and              Compliance training should center on        house or by an outside source.39
monitoring subsequent corrective action          explaining why the practice is              Training at outside seminars, instead of
and/or compliance.                               developing and establishing a code of       internal programs and in-service
   Each physician practice needs to              conduct and written policies and            sessions, can be an effective way to
assess its own practice situation and            procedures. The training should             achieve the practice’s training goals. In
determine what best suits that practice          emphasize that following the policies       fact, many community colleges offer
in terms of compliance oversight.                will not get a practice employee in         certificate or associate degree programs
D. Conducting Effective Training and             trouble, but violating the policies will.   in billing and coding, and professional
Education                                        New employees should be trained on          associations provide various kinds of
                                                 the compliance program within 60 days       continuing education and certification
  Education is an important part of any          of their start date and such training
compliance program. Education                                                                programs. Many carriers also offer
                                                 should be documented. Thereafter,           billing training.
programs should be tailored to the               employees should receive refresher             As part of the training, practices
physician practice’s needs and include           training on an annual basis or as           should make sure all employees are
both compliance and specific training.           appropriate.                                familiar with at least the key risk areas
Training expectations should be
                                                 2. Coding and Billing Training              in this guidance and areas of particular
commensurate with the size and
                                                                                             OIG interest as identified in the OIG’s
speciality of the practice.                         Coding and billing training on the
  There are three basic steps for setting                                                    Work Plan published each year.40 The
                                                 Federal health care program                 physician practice also needs to work
up educational objectives:
  • Determining who needs training               requirements may be necessary for           with its third-party billing company, if
(both in coding and billing and in               certain members of the physician            one is used, to ensure that
compliance);                                     practice staff depending on their           documentation is of a level that is
  • Determining the type of training             respective responsibilities. Individuals    adequate for the billing company to
that best suits the practice’s needs (e.g.,      who are directly involved with billing,     submit accurate claims on behalf of the
seminars, in-service training, self-study        coding or other aspects of the Federal      physician practice. If it is not, these
or other programs); and                          health care programs should receive         problem areas should also be covered in
  • Determining when the education is            extensive education specific to that        the training. In addition to the billing
needed and how much each person                  individual’s responsibilities. Items to     training, physician practices should be
should receive.                                  cover in coding and billing training can    certain that updated ICD–9, HCPCS and
  Training can be accomplished                   include:                                    CPT manuals (in addition to the carrier
through a variety of means, including               • Coding requirements;                   bulletins construing those sources) are
in-person training sessions (i.e., either           • Claim development and submission       available to all employees involved in
on site or at outside seminars),                 processes;                                  the billing process. A source of
distribution of newsletters, 38 or even a           • Marketing practices that reflect       continuous updates on current billing
readily accessible office bulletin board.        current legal and program standards;        policies should also be readily
                                                                                             available.41
Regardless of the training modality                 • The ramifications of submitting a
used, a physician practice should                                                               Physician practices are not required to
                                                 claim for physician services when
ensure that the necessary education is                                                       have separate education and training
                                                 rendered by a non-physician;                programs for both the compliance and
communicated effectively. Simply                    • Signing a form for a physician
providing individuals with documents                                                         coding and billing training. All in-
                                                 without the physician’s authorization;      service training and continuing
for their own reading and                           • The ramifications of altering
comprehension is seldom sufficient.                                                          education can integrate compliance
                                                 medical records;                            issues, as well as other core values
1. Compliance Training                              • Proper documentation of services       adopted by the practice, such as quality
   Under the direction of the designated         rendered;                                   improvement and improved patient
compliance officer/contact, both initial            • How to report misconduct;              service, into their curriculum.
and recurrent training in compliance is             • Proper billing standards and
advisable, both with respect to the              procedures and submission of accurate          39 Another way for physician practices to receive

                                                 bills for services or items rendered to     effective training is for the physicians and/or the
compliance program itself and                                                                employees of the practice to attend training
applicable statutes and regulations. The         Federal health care program                 programs offered by larger entities, such as a
operation and importance of the                  beneficiaries;                              hospital, a local medical society or a carrier. This
compliance program, the consequences                • The personal obligation of each        sort of collaborative effort is an excellent way for
                                                                                             the practice to meet the desired training objective
of violating the policies set forth in the       person involved in the billing process to   without having to expend the resources to develop
program, and the role of each employee           ensure claims are properly and              and implement in-house training.
in the operation of the compliance               accurately submitted;                          40 The OIG’s work plan is currently available on

program should also be addressed.                   • The legal sanctions for submitting     the Internet at http://www.hhs.gov/oig. The OIG
                                                                                             Work Plan details the various projects the OIG
   Compliance training should have two           deliberately false or reckless billings;    intends to address in the fiscal year. The Work Plan
goals: (1) All employees should receive             • Informing physicians that they         contains the projects of the Office of Audit Services,
training on how to perform their jobs in         cannot receive payment or any type of       Office of Evaluation and Inspections, Office of
compliance with the standards of the             incentive to induce referrals and that      Investigations and the Office of Counsel to the
                                                                                             Inspector General.
practice and any applicable regulations;         claims should not be submitted for             41 Some publications, such as OIG’s Special Fraud
and (2) each employee should                     physician services when those services      Alerts, audit and inspection reports, and Advisory
                                                 are rendered by a non-physician (unless     Opinions are readily available from the OIG and can
  38 HCFA also offers free online training for                                               provide a basis for educational courses and
                                                 they follow the applicable Federal
general fraud and abuse issues at http://                                                    programs for physician practice employees. These
www.medicaretraining.com. See Appendix F for
                                                 health care program requirements, e.g.,     can be obtained through the Internet. See Appendix
additional information.                          ‘‘incident to’’ rules).                     F.
36826                           Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

4. Continuing Education on Compliance                     • Creation of a user-friendly process,     2. Claims Submission Audit
Issues                                                 such as an anonymous drop box, for               In addition to the policies and
   There is no set formula for                         effectively reporting fraudulent or           procedures themselves, bills and
determining how often training sessions                erroneous conduct;                            medical records should be reviewed for
should occur.42 The OIG recommends                        • Provisions in the policies and           compliance with applicable coding,
that there be at least an annual training              procedures that state that a failure to       billing and documentation
program for all individuals involved in                report fraudulent or erroneous conduct        requirements. The people involved in
the coding and billing aspects of the                  is a violation of the compliance              these self-audits should include the
practice. New billing and coding                       program;                                      person in charge of billing compliance
employees should be trained within 60                     • Development of a simple and              and a medically trained person (e.g.,
days of assuming their duties and                      readily accessible procedure to process       registered nurse or preferably a
should work under an experienced                       reports of fraudulent or erroneous            physician (physicians can rotate in this
employee until their training has been                 conduct;                                      position)). Each practice needs to decide
completed.                                                                                           for itself whether to review claims
                                                          • Utilization of a process that            retrospectively or concurrently with the
E. Developing Effective Lines of                       maintains the confidentiality of the
Communication                                                                                        claims submission. In the Third-Party
                                                       persons involved in the alleged               Medical Billing Compliance Program
   An open line of communication is                    fraudulent or erroneous conduct and the       Guidance,44 the OIG recommended that
essential to proper implementation of an               person making the allegation; and             a baseline, or ‘‘snapshot,’’ be used as
effective compliance program. Guidance                    • Provisions in the policies and           part of the benchmarking analysis that
previously issued by the OIG has                       procedures that there will be no              would enable a practice to judge its
encouraged the use of several forms of                 retribution for reporting conduct that a      progress in reducing or eliminating
communication between the compliance                   reasonable person acting in good faith        potential areas of vulnerability.
officer/committee and provider                         would have believed to be fraudulent or          The practice’s self-audits should be
personnel, many of which focus on                      erroneous.                                    used to determine whether:
formal processes and are more costly to                                                                 1. Bills are accurately coded and
implement (e.g., hotlines and e-mail).                    The OIG recognizes that protecting
                                                       anonymity may be infeasible for small         accurately reflect the services provided;
However, the OIG recognizes that the                                                                    • Services or items provided are
nature of some physician practices is                  physician practices. However, the OIG
                                                       believes all practice employees, when         reasonable and necessary;
not as conducive to implementing these                                                                  • Any incentives for unnecessary
types of measures. The nature of a small               seeking answers to questions or
                                                                                                     services exist; and
physician practice dictates that such                  reporting potential instances of                 • Medical records contain sufficient
communication and information                          fraudulent or erroneous conduct, should       documentation to support the charge.
exchanges need to be conducted                         know to whom to turn for assistance in           A baseline audit should examine the
through a less formalized process than                 these matters and should be able to do        claim development and submission
that which has been envisioned by prior                so without fear of retribution. While the     process, from patient intake through
OIG guidance.                                          physician practice should always strive       claim submission and payment, and
   In the small physician practice                     to maintain the confidentiality of an         identify elements within this process
setting, the communication element can                 employee’s identity, it should also make      that may contribute to non-compliance
be met by implementing a clear ‘‘open                  clear that there may be a point at which      or that may need to be the focus for
door’’ policy between the physicians                   the individual’s identity may become          improving execution.45 This audit
and compliance personnel and practice                  known or may have to be revealed in           should establish a consistent
employees. This policy can be                          certain instances.                            methodology for selecting and
implemented in conjunction with less                                                                 examining records, and this
                                                       F. Auditing and Monitoring
formal communication techniques, such                                                                methodology should serve as a basis for
as conspicuous notices posted in                          An ongoing evaluation process is           future audits. It should be conducted
common areas and/or the development                    important to a successful compliance          based on claims submitted during the
and placement of a compliance bulletin                 program. This ongoing evaluation              initial three months after
board where everyone in the practice                   should include not only whether the           implementation of the education and
can go for up-to-date compliance                       practice’s standards and procedures are       training program so as to give the
information.43                                         in fact current and accurate, but also        physician practice a benchmark against
   A compliance program’s system for                   whether or not the compliance program         which to measure future compliance
effective communication should include                 is effective, i.e., whether individuals are   effectiveness.
the following:                                         properly carrying out their                      Following the baseline audit, periodic
   • The requirement that employees
                                                       responsibilities and claims are               audits could be conducted at least once
report conduct that a reasonable person
                                                       submitted appropriately.                      each year to ensure that the compliance
would, in good faith, believe to be
fraudulent or erroneous;                                                                             program is being followed. A randomly
                                                       1. Policies and Procedures
                                                                                                     selected number of medical records
   42 Currently, the OIG is monitoring a significant      It is recommended that the                 could be reviewed to ensure that the
number of corporate integrity agreements that          individual(s) in charge of the                coding was performed accurately.
require many of these training elements. The OIG       compliance program also be charged            Although there is no set formula to how
usually requires a minimum of one hour annually                                                      many medical records should be
for basic training in compliance areas. Additional     with the responsibility of periodically
training is required for specialty fields such as      reviewing the policies and procedures         reviewed, a basic guide is two to five
claims development and billing.                        to see if they are current and complete.
   43 In addition to whatever other method of                                                          44 Available on the OIG website at http://
                                                       If the policies and procedures are found
communication is being utilized, practices should                                                    www.hhs.gov/oig.
post in a prominent area the HHS–OIG Hotline
                                                       to be ineffective or outdated, they             45 See Appendix D.II. referencing the Provider

telephone number (1–800–HHS–TIPS). See                 should be updated to reflect changes in       Self-Disclosure Protocol for information on how to
Appendix D for additional information.                 CPT codes and Government regulations.         conduct a baseline audit.
                         Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                          36827

medical records per payer, or five to ten    respond to and report potential                  provider of health care. Fraudulent or
medical records per physician. Of            problems. In addition, preserving                erroneous conduct that has been
course, the larger the sample size, the      information relating to identification of        detected, but not corrected, can
greater the confidence in the results. If    the problem is as important as                   seriously endanger the reputation and
problems are identified, focused review      preserving information that tracks the           legal status of the practice.
should be conducted on a more frequent       physician practice’s reaction to, and            Consequently, upon receipt of reports or
basis. When audit results reveal areas       solution for, the issue.                         reasonable indications of suspected
needing additional information or                                                             noncompliance, it is important that the
                                             G. Enforcing Standards Through Well-
education of employees and physicians,                                                        compliance officer or other practice
                                             Publicized Disciplinary Guidelines
these areas should be incorporated into                                                       employee investigate the allegations to
the training and educational system.            An effective physician practice
                                                                                              determine whether a material violation
   Periodic audits could include the         compliance program includes
                                                                                              of applicable law or the requirements of
following:                                   procedures for enforcing and
                                                                                              the compliance program has occurred,
   • A valid sample of the practice’s top    disciplining individuals who violate the
                                                                                              and, if so, take decisive steps to correct
ten denials, or the practice’s top ten       practice’s compliance standards.
                                             Enforcement and disciplinary                     the problem.47 As appropriate, such
services provided;
   • Confirmation that the physician         provisions are necessary to put teeth            steps may include a corrective action
practice has been using specific codes,      into a compliance program.                       plan,48 the return of any overpayments,
as some codes are too general for               A physician practice’s enforcement            a report to the Government, 49 and/or a
‘‘reasonable and necessary’’ purposes;       and disciplinary mechanisms should               referral to law enforcement authorities.
   • A check for data entry errors;          ensure that violations of the practice’s            There are several key warning signs of
   • Confirmation that all orders are        compliance policies will result in               when a compliance program is not
written and signed by a physician;           consistent and appropriate sanctions,            working well, e.g., high rates of rejected
   • A check for reasonable and              including the possibility of termination,        and/or suspended claims and the
necessary services performed;                against the offending individual. At the         placement of a practice on pre-payment
   • Confirmation that all tests ordered     same time, the practice’s enforcement            review by the carrier. These warning
by the physician(s) were actually            and disciplinary procedures should be            signs should be followed up on
performed and documented and that            flexible enough to account for mitigating        immediately and the compliance
only those tests were billed; and            or aggravating circumstances. The                procedures of the practice changed to
   • A review of assignment codes and        program should also stipulate that               prevent the problem from recurring.
modifiers to the claims.                     individuals who fail to detect or report
   One of the most important elements of                                                         As previously stated, the physician
                                             violations of the compliance program
a successful billing compliance program      may also be subject to discipline.               practice should take appropriate
is appropriate action when the               Disciplinary actions could include:              corrective action, including prompt
physician practice identifies a problem      warnings (oral); reprimands (written);           identification of any overpayment to the
in its internal audit. This action should    probation; demotion; temporary                   affected payer. A knowing and willful
be taken as soon as possible, but it is      suspension; discharge of employment;             failure to disclose overpayments within
recommended that the action be taken         restitution of damages; and referral for         a reasonable period of time could be
within 60 days from the date the             criminal prosecution. Inclusion of               interpreted as an attempt to conceal the
problem is identified. The specific          disciplinary guidelines in in-house              overpayment from the Government,
action a physician practice takes should     training and procedure manuals is                thereby establishing an independent
depend on the circumstances of the           sufficient to meet the ‘‘well publicized’’       basis for a criminal violation with
situation it has identified. In some         standard of this element.                        respect to the physician practice, as well
cases, the action can be as simple as           Any communication resulting in the            as any individual who may have been
generating a repayment to Medicare or        finding of non-compliant conduct
the appropriate payer. Alternatively, the    should be documented in the                         47 Instances of noncompliance must be

repayment could be effectuated through       compliance files by including the date           determined on a case-by-case basis. The existence
offsets to other billings, such as           of incident, name of the reporting party,        or amount of a monetary loss to a health care
undercodings. In others, the physician                                                        program is not solely determinative of whether the
                                             name of the person responsible for               conduct should be investigated and reported to
practice may want to seek legal advice       taking action, and the follow-up action          governmental authorities. In fact, there may be
and/or consult with a coding/billing         taken. Physician practices should also           instances where there is no readily identifiable
expert to determine the next best course     conduct checks to make sure all current          monetary loss, but corrective actions are still
of action. There is no boilerplate                                                            necessary to protect the integrity of the applicable
                                             and potential practice employees are not         program and its beneficiaries, e.g., where services
solution to how to handle problems that      listed on the OIG or GSA lists of                required by a plan of care are not provided.
are identified.                              individuals excluded from participation             48 The physician practice may seek advice from

   It is important that the physician        in Federal health care or Government             its legal counsel to determine the extent of the
practice monitor its billing program to                                                       practice’s liability and to plan the appropriate
                                             procurement programs.46                          course of action.
ensure claims are correctly submitted. If                                                        49 The OIG has established a Provider Self-
a physician practice identifies, through     H. Responding to Detected Offenses and
                                                                                              Disclosure Protocol that encourages providers to
its internal audits, what it believes is a   Developing Corrective Action Initiatives         voluntarily report suspected fraud. The concept of
potential problem, there should be             Violations of a physician practice’s           voluntary self-disclosure is premised on a
sufficient confidence in the compliance                                                       recognition that the Government alone cannot
                                             compliance program, significant failures         protect the integrity of the Medicare and other
procedures developed by the physician        to comply with applicable Federal or             Federal health care programs. Health care providers
practice to reasonably believe that the      State law, and other types of                    must be willing to police themselves, correct
problem is in fact a potential issue.        misconduct threaten a practice’s status          underlying problems, and work with the
Steps should be taken to remedy the                                                           Government to resolve these matters. The Provider
                                             as a reliable, honest, and trustworthy           Self-Disclosure Protocol can be located on the OIG’s
situation immediately.                                                                        website at: www.hhs.gov/oig. See Appendix D for
   All physician practices should create       46 See Footnote 37 for information on how to   further information on the Provider Self-Disclosure
a system to address how they will            access these lists.                              Protocol.
36828                            Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

involved.50 For this reason, physician                    effective compliance program, physician              and that the patient assumes responsibility to
practice compliance programs should                       practices can help prevent and reduce                pay for the service.
emphasize that overpayments should be                     fraudulent or erroneous conduct in their                The Medicare Carrier’s Manual 2 provides
                                                                                                               that an ABN will not be acceptable if: (1) The
promptly disclosed and returned to the                    practices, as well as furthering their               patient is asked to sign a blank ABN form;
entity that made the erroneous payment.                   mission to provide quality care to their             and (2) the ABN is used routinely without
   After an offense has been detected, a                  patients.                                            regard to a particularized need. The routine
physician or group practice should take                     Dated: June 6, 2000.                               use of ABNs is generally prohibited because
all reasonable steps to respond to the                                                                         the ABN must state the specific reason the
                                                          Michael F. Mangano,
offense and to prevent similar offenses.                                                                       physician anticipates that the specific service
The compliance program should                             Principal Deputy Inspector General.                  will not be covered.
provide for a full internal investigation                 Appendix A: Additional Risk Areas                       A common risk area associated with ABNs
of all reports of detected violations. The                                                                     is in regard to diagnostic tests or services.
                                                          I. Reasonable and Necessary Services                 There are four steps that a physician practice
goodwill that physicians generate by                                                                           can take to help ensure it is in compliance
developing an effective compliance                        A. Local Medical Review Policy                       with the regulations concerning ABNs for
program will quickly dissipate if the                        An area of concern relating to                    diagnostic tests or services:
physician ignores reports of possible                     determinations of reasonable and necessary              1. Determine which tests are not covered
fraudulent activity.                                      services is the variation in local medical           under national coverage rules;
   The compliance program procedures                      review policies (LMRPs) among carriers.                 2. Determine which tests are not covered
should include provisions to ensure that                  Physicians are supposed to bill the Federal          under local coverage rules such as LMRPs
a violation is not compounded once                        health care programs only for items and              (contact the practice’s carrier to see if a
discovered. The individuals involved in                   services that are reasonable and necessary.          listing has been assembled); and
                                                          However, in order to determine whether an               3. Determine which tests are only covered
the violation should either be retrained,                 item or service is reasonable and necessary          for certain diagnoses.
or, if appropriate, terminated. The                       under Medicare guidelines, the physician                The OIG is aware that the use of ABNs is
physician practice may also prevent the                   must apply the appropriate LMRP.1                    an area where physician practices experience
compounding of the violation by                              Physician practices are to bill the Federal       numerous difficulties. Practices can help to
conducting a review of all confirmed                      health programs only for items and services          reduce problems in this area by educating
violations, and, if appropriate, self-                    that are covered. In order to determine if an        their physicians on the correct use of ABNs,
reporting the violations to the                           item or service is covered for Medicare,             obtaining guidance from the carrier regarding
applicable authority. This should be                      physician practices must be knowledgeable            their interpretation of whether an ABN is
                                                          of the LMRPs applicable to their practices           necessary where the service is not covered,
done within 90 days of the discovery of                   jurisdiction. When the LMRP indicates that           developing a standard form for all diagnostic
a violation.                                              an item or service may not be covered by             tests (most carriers have a developed model),
   The physician practice should                          Medicare, the physician practice is                  and developing a process for handling
recognize that if a violation occurred                    responsible to convey this information to the        patients who refuse to sign ABNs.
and was not immediately detected, its                     patient so that the patient can make an
compliance program may require                            informed decision concerning the health care         C. Physician Liability for Certifications in the
                                                          services he/she may want to receive.                 Provision of Medical Equipment and
modification. Physicians who detect                                                                            Supplies and Home Health Services
violations should analyze the situation                   Physician practices convey this information
to determine whether a flaw in their                      through Advanced Beneficiary Notices                   In January 1999, the OIG issued a Special
                                                          (ABNs).                                              Fraud Alert on this topic, which is available
compliance program failed to anticipate                                                                        on the OIG website at www.hhs.gov/oig/
the detected problem, or whether the                      B. Advanced Beneficiary Notices                      frdalrt/index.htm. The following is a
compliance program’s procedures failed                       Physicians are required to provide ABNs           summary of the Special Fraud Alert.
to prevent the violation. In any event, it                before they provide services that they know            The OIG issued the Special Fraud Alert to
is prudent, even absent the detection of                  or believe Medicare does not consider                reiterate to physicians the legal and
any violations, for physician practices to                reasonable and necessary. A properly                 programmatic significance of physician
periodically review and modify their                      executed ABN acknowledges that coverage is           certifications made in connection with the
                                                          uncertain or yet to be determined, and               ordering of certain items and services for
compliance programs.51                                    stipulates that the patient promises to pay the      Medicare patients. In light of information
III. Conclusion                                           bill if Medicare does not. Patients who are          obtained through OIG provider audits, the
                                                          not notified before they receive such services       OIG deemed it necessary to remind
   Just as immunizations are given to                     are not responsible for payment. The ABN             physicians that they may be subject to
patients to prevent them from becoming                    must be sufficient to put the patient on notice      criminal, civil, and administrative penalties
ill, physician practices should view the                  of the reasons why the physician believes            for signing a certification when they know
implementation of an effective                            that the payment may be denied. The                  that the information is false or for signing a
compliance program as comparable to a                     objective is to give the patient sufficient          certification with reckless disregard as to the
form of preventive medicine to protect                    information to allow an informed choice as           truth of the information. (See Appendix B
against fraudulent or erroneous conduct.                  to whether to pay for the service.                   and Appendix C for more detailed
This compliance program guidance is                          Accordingly, each ABN should:                     information on the applicable statutes).
                                                             1. Be in writing;                                   Medicare has conditioned payment for
intended to assist physician practices in                    2. Identify the specific service that may be      many items and services on a certification
developing and implementing internal                      denied (procedure name and CPT/HCPC code             signed by a physician attesting that the
controls and procedures that promote                      is recommended);                                     physician has reviewed the patient’s
adherence to Federal health care                             3. State the specific reason why the              condition and has determined that an item or
program and private insurance program                     physician believes that service may be               service is reasonable and necessary. Because
requirements. By implementing an                          denied; and                                          Medicare primarily relies on the professional
                                                             4. Be signed by the patient acknowledging         judgment of the treating physician to
  50 See   42 U.S.C. 1320a–7b(a)(3) and 18 U.S.C.         that the required information was provided           determine the reasonable and necessary
669.                                                                                                           nature of a given service or supply, it is
   51 Previous OIG Compliance Program Guidance              1 HCFA has recently developed a website which,

have set forth criteria for assessing the effectiveness   when completed by the end of the year 2000, will       2 The relevant manual provisions are located at

of a compliance program. See Footnote 3 for a             contain the LMRPs for each of the contractors        MCM, Part III, §§ 7300, 7320. This section of the
listing of previous Compliance Program Guidance           across the country. The website can be accessed at   manual also includes the carrier’s recommended
and information on how to access them.                    http://www.lmrp.net.                                 form of an ABN.
                           Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                                   36829

important that physicians provide complete       amount paid and indicate that the service is           of particular concern is physician on-call
and accurate information on any                  not covered.                                           responsibilities. Physician practices whose
certifications they sign. Physician                                                                     members serve as on-call emergency room
certification is obtained through a variety of   II. Physician Relationships With Hospitals             physicians with hospitals should make sure
forms, including prescriptions, orders, and      A. The Physician Role in the Patient Anti-             they are familiar with the hospital’s policies
Certificates of Medical Necessity (CMNs).        Dumping Statute                                        regarding on-call physicians. This can be
Two areas where physician certification as to                                                           done by reviewing the medical staff bylaws
                                                    The Patient Anti-Dumping Statute, 42
whether an item or service is reasonable and                                                            or policies and procedures of the hospital
                                                 U.S.C. 1395dd, is an area that has been
necessary is essential and which can result                                                             that must define the responsibility of on-call
                                                 receiving increasing scrutiny. The statute is
in fraudulent or erroneous conduct are: (1)                                                             physicians to respond to, examine, and treat
                                                 intended to ensure that all patients who
home health services; and (2) durable                                                                   patients with emergency medical conditions.
                                                 come to the emergency department of a
medical equipment.                                                                                      Physicians should also be aware that, in most
                                                 hospital receive care, regardless of their
   By signing a CMN, the physician                                                                      cases, on-call physicians must come to the
                                                 insurance or ability to pay. Both hospitals
represents that:                                                                                        hospital to examine the patient when a
                                                 and physicians need to work together to
   1. He or she is the patient’s treating                                                               request is made for their services. If,
                                                 ensure compliance with the provisions of
physician and that the information regarding                                                            however, their offices are located in a
                                                 this law.
the physician’s address and unique physician                                                            hospital-owned facility on contiguous land or
                                                    The statute imposes three fundamental
identification number (UPN) is correct;                                                                 on the hospital campus, the patient may be
                                                 requirements upon hospitals that participate
   2. The entire CMN, including the sections                                                            seen in the physician’s office.
                                                 in the Medicare program with regard to
filled out by the supplier, was completed        patients requesting emergency care. First, the         B. Teaching Physicians
prior to the physician’s signature; and          hospital must conduct an appropriate
   3. The information in section B relating to                                                             Special regulations apply to teaching
                                                 medical screening examination to determine             physicians’ billings. Regulations provide that
whether the item or service is reasonable and    if an emergency medical condition exists.3
necessary is true, accurate, and complete to                                                            services provided by teaching physicians in
                                                 Second, if the hospital determines that an             teaching settings are payable under the
the best of the physician’s knowledge.           emergency medical condition exists, it must
   Activities such as signing blank CMNs,                                                               physician fee schedule only if the services
                                                 either provide the treatment necessary to              are personally furnished by a physician who
signing CMNs without seeing the patient to       stabilize the emergency medical condition or
verify the item or service is reasonable and                                                            is not a resident or the services are furnished
                                                 comply with the statute’s requirements to              by a resident in the presence of a teaching
necessary, and signing a CMN for a service       effect a proper transfer of a patient whose
that the physician knows is not reasonable                                                              physician.8
                                                 condition has not been stabilized.4 A hospital            The teaching physician must be present
and necessary are activities that can lead to    is considered to have met this second
criminal, civil and administrative penalties.                                                           during the key portion of any service or
                                                 requirement if an individual refuses the               procedure for which payment is sought.9
   Ultimately, physicians should be sure to      hospital’s offer of additional examination or
carefully review any form of certification                                                              Physicians should ensure the following with
                                                 treatment, or refuses to consent to a transfer,        respect to services provided in the teaching
(order, prescription or CMN) before signing it   after having been informed of the risks and
to verify that the information contained in                                                             physician setting:10
                                                 benefits.5                                                1. Only services actually provided are
the certification is both complete and              If an individual’s emergency medical
accurate.                                                                                               billed;
                                                 condition has not been stabilized, the                    2. Every physician who provides or
D. Billing for Non-Covered Services as If        statute’s third requirement is activated. A            supervises the provision of services to a
Covered                                          hospital may not transfer an individual with           patient is responsible for the correct
                                                 an unstable emergency medical condition                documentation of the services that were
   In some instances, we are aware that
                                                 unless: (1) The individual or his or her               rendered;
physician practices submit claims for
                                                 representative makes a written request for                3. Every physician is responsible for
services in order to receive a denial from the
                                                 transfer to another medical facility after being       assuring that in cases where the physician
carrier, thereby enabling the patient to
                                                 informed of the risk of transfer and the               provides evaluation and management (E and
submit the denied claim for payment to a
                                                 transferring hospital’s obligation under the           M) services, a patient’s medical record
secondary payer.
                                                 statute to provide additional examination or           includes appropriate documentation of the
   A common question relating to this risk is:
                                                 treatment; (2) a physician has signed a                applicable key components of the E and M
If the medical services provided are not
                                                 certification summarizing the medical risks            services provided or supervised by the
covered under Medicare, but the secondary
                                                 and benefits of a transfer and certifying that,        physician (e.g., patient history, physician
or supplemental insurer requires a Medicare
                                                 based upon the information available at the            examination, and medical decision making),
rejection in order to cover the services, then
                                                 time of transfer, the medical benefits                 as well as documentation to adequately
would the original submission of the claim
                                                 reasonably expected from the transfer                  reflect the procedure or portion of the
to Medicare be considered fraudulent? Under
                                                 outweigh the increased risks; or (3) if a              services provided by the physician; and
the applicable regulations, the OIG would not
                                                 physician is not physically present when the              4. Every physician must document his or
consider such submissions to be fraudulent.
                                                 transfer decision is made, a qualified medical         her presence during the key portion of any
For example, the denial may be necessary to
                                                 person signs the certification after the               service or procedure for which payment is
establish patient liability protections as
                                                 physician, in consultation with the qualified          sought.
stated in section 1879 of the Social Security
                                                 medical person, has made the determination
Act (the Act) (codified at 42 U.S.C. 1395pp).                                                           C. Gainsharing Arrangements and Civil
                                                 that the benefits of transfer outweigh the
As stated, Medicare denials may also be                                                                 Monetary Penalties for Hospital Payments to
                                                 increased risks. The physician must later
required so that the patient can seek payment                                                           Physicians To Reduce or Limit Services to
                                                 countersign the certification.6
from a secondary insurer. In instances where                                                            Beneficiaries
                                                    Physician and/or hospital misconduct may
a claim is being submitted to Medicare for                                                                In July 1999, the OIG issued a Special
                                                 result in violations of the statute.7 One area
this purpose, the physician should indicate                                                             Fraud Alert on this topic, which is available
on the claim submission that the claim is                                                               on the OIG website at www.hhs.gov/oig/
                                                   3 See 42 U.S.C. 1395dd(a).
being submitted for the purpose of receiving                                                            frdalrt/index.htm. The following is a
                                                   4 See 42 U.S.C. 1395dd(b)(1).
a denial, in order to bill a secondary                                                                  summary of the Special Fraud Alert.
                                                   5 See 42 U.S.C. 1395dd(b)(2)–(3).
insurance carrier. This step should assist
                                                   6 See 42 U.S.C. 1395dd(c)(1)(A).
carriers and prevent inadvertent payments to                                                              8 42    CFR 415.150-.190.
                                                   7 Hospitals and physicians, including on-call
which the physician is not entitled. In some                                                              9 Id.
                                                 physicians, who violate the statute may face stiff
instances, however, the carrier pays the claim   penalties. Those penalties include civil fines of up      10 This section is not intended to be and is not
even though the service is non-covered, and      to $50,000 (or not more than $25,000 in the case       a complete reference for teaching physicians. It is
even though the physician did not intend for     of a hospital with less than 100 beds) per violation   strongly recommended that those physicians who
payment to be made. When this occurs, the        and exclusion of a physician from participation in     practice in a teaching setting consult their
physician has a responsibility to refund the     the Federal health care programs.                      respective hospitals for more guidance.
36830                         Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

   The term ‘‘gainsharing’’ typically refers to      payment is considered to be made directly to        violation or be excluded from participation
an arrangement in which a hospital gives a           the billing service if the service can convert      in Federal health care programs for up to 5
physician a percentage share of any                  the payment to its own use and control              years.
reduction in the hospital’s costs for patient        without the payment first passing through
care attributable in part to the physician’s         the control of the physician. For example, the      C. Professional Courtesy
efforts. The civil monetary penalty (CMP)            billing service cannot bill the claims under           The term ‘‘professional courtesy’’ is used to
that applies to gainsharing arrangements is          its own name or tax identification number.          describe a number of analytically different
set forth in 42 U.S.C. 1320a–7a(b)(1). This          The billing service must bill claims under the      practices. The traditional definition is the
section prohibits any hospital or critical           physician’s name and tax identification             practice by a physician of waiving all, or a
access hospital from knowingly making a              number. Nor can a billing service have the          part, of the fee for services provided to the
payment directly or indirectly to a physician        Medicare payments sent directly to its office       physician’s office staff, other physicians,
as an inducement to reduce or limit services         or its bank account. The Medicare payments          and/or their families. In recent times,
to Medicare or Medicaid beneficiaries under          should instead be sent to the physician’s           ‘‘professional courtesy’’ has come to also
a physician’s care.                                  office or bank account.                             mean the waiver of coinsurance obligations
   It is the OIG’s position that the CMP law            Physician practices should review the            or other out-of-pocket expenses for
clearly prohibits any gainsharing                    third-party medical billing guidance for            physicians or their families (i.e., ‘‘insurance
arrangements that involve payments by or on          additional information on third-party billing       only’’ billing), and similar payment
behalf of a hospital to physicians with              companies and the compliance risk areas             arrangements by hospitals or other
clinical care responsibilities, directly or          associated with billing companies.                  institutions for services provided to their
indirectly, to induce a reduction or limitation                                                          medical staffs or employees. While only the
of services to Medicare or Medicaid patients.        B. Billing Practices by Non-Participating           first of these practices is truly ‘‘professional
However, hospitals and physicians are not            Physicians                                          courtesy,’’ in the interests of clarity and
prohibited from working together to reduce              Even though nonparticipating physicians          completeness, we will address all three.
unnecessary hospital costs through other             do not accept payment directly from the                In general, whether a professional courtesy
arrangements. For example, hospitals and             Medicare program, there are a number of             arrangement runs afoul of the fraud and
physicians may enter into personal services          laws that apply to the billing of Medicare          abuse laws is determined by two factors: (i)
contracts where hospitals pay physicians             beneficiaries by non-participating physicians.      how the recipients of the professional
based on a fixed fee at fair market value for        Limiting Charges                                    courtesy are selected; and (ii) how the
services rendered to reduce costs rather than                                                            professional courtesy is extended. If
a fee based on a share of cost savings.                 42 U.S.C. 1395w–4(g) prohibits a
                                                                                                         recipients are selected in a manner that
                                                     nonparticipating physician from knowingly
III. Physician Billing Practices                                                                         directly or indirectly takes into account their
                                                     and willfully billing or collecting on a
                                                                                                         ability to affect past or future referrals, the
                                                     repeated basis an actual charge for a service
A. Third-Party Billing Services                                                                          anti-kickback statute—which prohibits giving
                                                     that is in excess of the Medicare limiting
   Physicians should remember that they              charge. For example, a nonparticipating             anything of value to generate Federal health
remain responsible to the Medicare program           physician may not bill a Medicare                   care program business—may be implicated. If
for bills sent in the physician’s name or            beneficiary $50 for an office visit when the        the professional courtesy is extended through
containing the physician’s signature, even if        Medicare limiting charge for the visit is $25.      a waiver of copayment obligations (i.e.,
the physician had no actual knowledge of a           Additionally, there are numerous provisions         ‘‘insurance only’’ billing), other statutes may
billing impropriety. The attestation on the          that prohibit nonparticipating physicians           be implicated, including the prohibition of
HCFA 1500 form, i.e., the physician’s                from knowingly and willfully charging               inducements to beneficiaries, section
signature line, states that the physician’s          patients in excess of the statutory charge          1128A(a)(5) of the Act (codified at 42 U.S.C.
services were billed properly. In other words,       limitations for certain specified procedures,       1320a–7a(a)(5)). Claims submitted as a result
it is no defense for the physician if the            such as cataract surgery, mammography               of either practice may also implicate the civil
physician’s billing service improperly bills         screening, and coronary artery bypass               False Claims Act.
Medicare.                                            surgery. Physicians who fail to comply with            The following are general observations
   One of the most common risk areas                 these sections may be fined up to $10,000 per       about professional courtesy arrangements
involving billing services deals with                violation or be excluded from participation         that physician practices should consider:
physician practices contracting with billing         in Federal health care programs for up to five         • A physician’s regular and consistent
services on a percentage basis. Although             years.                                              practice of extending professional courtesy
percentage based billing arrangements are not                                                            by waiving the entire fee for services
                                                     Refund of Excess Charges                            rendered to a group of persons (including
illegal per se, the Office of Inspector General
has a longstanding concern that such                    42 U.S.C. 1395w–4(g) mandates that if a          employees, physicians, and/or their family
arrangements may increase the risk of                nonparticipating physician collects an actual       members) may not implicate any of the OIG’s
intentional upcoding and similar abusive             charge for a service that is in excess of the       fraud and abuse authorities so long as
billing practices.11                                 limiting charge, the physician must refund          membership in the group receiving the
   A physician may contract with a billing           the amount collected above the limiting             courtesy is determined in a manner that does
service on a percentage basis. However, the          charge to the individual within 30 days             not take into account directly or indirectly
billing service cannot directly receive              notice of the violation. For example, if a          any group member’s ability to refer to, or
Medicare payments made to the physician.             physician collected $50 from a Medicare             otherwise generate Federal health care
Under 42 U.S.C. 1395u(b)(6), Medicare                beneficiary for an office visit, but the limiting   program business for, the physician.
payments can only be made to either the              charge for the visit was $25, the physician            • A non-referring physician’s regular and
beneficiary or a party (such as a physician)         must refund $25 to the beneficiary, which is        consistent practice of extending professional
that furnished the services and accepted             the difference between the amount collected         courtesy by waiving otherwise applicable
assignment of the beneficiary’s claim. A             ($50) and the limiting charge ($25).                copayments for services rendered to
billing service that contracts on a percentage       Physicians who fail to comply may be fined          physicians, referring and non-referring alike,
basis does not qualify as a party that               up to $10,000 per violation or be excluded          their employees and family members, would
furnished services to a beneficiary, thus a          from participation in Federal health care           not implicate the anti-kickback statute so
billing service cannot directly receive              programs for up to 5 years.                         long as membership in the group is
Medicare payments. According to the                     42 U.S.C. 1395u(l)(A)(iii) mandates that a       determined in a manner that does not take
Medicare Carriers Manual § 3060(A), a                nonparticipating physician must refund              into account directly or indirectly any group
                                                     payments received from a Medicare                   member’s ability to refer to, or otherwise
  11 This concern is noted in Advisory Opinion No.   beneficiary if it is later determined by a Peer     generate Federal health care program
98–4 and also the Office of Inspector General        Review Organization or a Medicare carrier           business for, the physician.
Compliance Program Guidance for Third-Party          that the services were not reasonable and              • Any waiver of copayment practice,
Medical Billing Companies. Both are available on     necessary. Physicians who fail to refund the        including that described in the preceding
the OIG website at http://www.hhs.gov/oig.           payments may be fined up to $10,000 per             bullet, does implicate section 1128A(a)(5) of
                            Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                              36831

the Act if the patient for whom the                B. Unlawful Advertising                             both. If the value of the asset is $100 or less,
copayment is waived is a Federal health care          42 U.S.C. 1320b–10 makes it unlawful for         the penalty is a fine, imprisonment of up to
program beneficiary who is not financially         any person to advertise using the names,            a year, or both.
needy.                                             abbreviations, symbols, or emblems of the           Example
  The legality of particular professional          Social Security Administration, Health Care
courtesy arrangements will turn on the                                                                   An office manager for Dr. X knowingly
                                                   Financing Administration, Department of             embezzles money from the bank account for
specific facts presented, and, with respect to     Health and Human Services, Medicare,
the anti-kickback statute, on the specific                                                             Dr. X’s practice. The bank account includes
                                                   Medicaid or any combination or variation of         reimbursement received from the Medicare
intent of the parties. Physicians who are          such words, abbreviations, symbols or
concerned that their particular practices may                                                          program; thus, intentional embezzlement of
                                                   emblems in a manner that such person                funds from this account is a violation of the
run afoul of the Federal fraud and abuse laws
                                                   knows or should know would convey the               law.
may request an OIG advisory opinion
                                                   false impression that the advertised item is
pursuant to regulations at 42 CFR Part 1008                                                            III. False Statements Relating to Health Care
                                                   endorsed by the named entities. For instance,
(See Appendix D for further detail), except                                                            Matters (18 U.S.C. 1035)
                                                   a physician may not place an ad in the
for matters pertaining to the physician self-
referral law, which are addressed by HCFA.         newspaper that reads ‘‘Dr. X is a cardiologist      Description of Unlawful Conduct
                                                   approved by both the Medicare and Medicaid
IV. Other Risk Areas                               programs.’’ A violation of this section may            It is a crime to knowingly and willfully
                                                   result in a penalty of up to $5,000 ($25,000        falsify or conceal a material fact, or make any
A. Rental of Space in Physician Offices by                                                             materially false statement or use any
                                                   in the case of a broadcast or telecast) for each
Persons or Entities to Which Physicians Refer                                                          materially false writing or document in
                                                   violation.
  In February 2000, the OIG issued a Special                                                           connection with the delivery of or payment
Fraud Alert on this topic, which is available      Appendix B: Criminal Statutes                       for health care benefits, items or services.
on the OIG website at www.hhs.gov/oig/                                                                 Note that this law applies not only to Federal
                                                      This Appendix contains a description of
frdalrt/index.htm. The following is a                                                                  health care programs, but to most other types
                                                   criminal statutes related to fraud and abuse        of health care benefit programs as well.
summary of the Special Fraud Alert.
                                                   in the context of health care. The Appendix
  Among various relationships between
                                                   is not intended to be a compilation of all          Penalty for Unlawful Conduct
physicians and labs, hospitals, home health
                                                   Federal statutes related to health care fraud          The penalty may include the imposition of
agencies, etc., the OIG has identified
potentially illegal practices involving the        and abuse. It is merely a summary of some           a fine, imprisonment of up to 5 years, or
rental of space in a physician’s office by         of the more frequently cited Federal statutes.      both.
suppliers that provide items or services to        I. Health Care Fraud (18 U.S.C. 1347)               Example
patients who are referred or sent to the
supplier by the physician-landlord. An             Description of Unlawful Conduct                        Dr. X certified on a claim form that he
example of a suspect arrangement is the                                                                performed laser surgery on a Medicare
                                                     It is a crime to knowingly and willfully
rental of physician office space by a durable                                                          beneficiary when he knew that the surgery
                                                   execute (or attempt to execute) a scheme to
medical equipment (DME) supplier in a                                                                  was not actually performed on the patient.
                                                   defraud any health care benefit program, or
position to benefit from referrals of the          to obtain money or property from a health           IV. Obstruction of Criminal Investigations of
physician’s patients. The OIG is concerned         care benefit program through false                  Health Care Offenses (18 U.S.C. 1518)
that in such arrangements the rental               representations. Note that this law applies
payments may be disguised kickbacks to the         not only to Federal health care programs, but       Description of Unlawful Conduct
physician-landlord to induce referrals.            to most other types of health care benefit            It is a crime to willfully prevent, obstruct,
Space Rental Safe Harbor to the Anti-              programs as well.                                   mislead, delay or attempt to prevent,
Kickback Statute                                                                                       obstruct, mislead, or delay the
                                                   Penalty for Unlawful Conduct                        communication of records relating to a
  To avoid potentially violating the anti-
kickback Statute, the OIG recommends that             The penalty may include the imposition of        Federal health care offense to a criminal
rental agreements should comply with all of        fines, imprisonment of up to 10 years, or           investigator. Note that this law applies not
the following criteria for the space rental safe   both. If the violation results in serious bodily    only to Federal health care programs, but to
harbor:                                            injury, the prison term may be increased to         most other types of health care benefit
  • The agreement is set out in writing and        a maximum of 20 years. If the violation             programs as well.
signed by the parties.                             results in death, the prison term may be
                                                   expanded to include any number of years, or         Penalty for Unlawful Conduct
  • The agreement covers all of the space
rented by the parties for the term of the          life imprisonment.                                     The penalty may include the imposition of
agreement and specifies the space covered by       Examples                                            a fine, imprisonment of up to 5 years, or
the agreement.                                                                                         both.
                                                      1. Dr. X, a chiropractor, intentionally billed
  • If the agreement is intended to provide        Medicare for physical therapy and                   Examples
the lessee with access to the space for            chiropractic treatments that he knew were              1. Dr. X instructs his employees to tell OIG
periodic intervals of time rather than on a                                                            investigators that Dr. X personally performs
                                                   never rendered.
full-time basis for the term of the rental                                                             all treatments when, in fact, medical
                                                      2. Dr. X, a psychiatrist, billed Medicare,
agreement, the rental agreement specifies                                                              technicians do the majority of the treatment
                                                   Medicaid, CHAMPUS, and private insurers
exactly the schedule of such intervals, the                                                            and Dr. X is rarely present in the office.
                                                   for psychiatric services that were provided by
precise length of each interval, and the exact                                                            2. Dr. X was under investigation by the FBI
                                                   his nurses rather than himself.
rent for each interval.                                                                                for reported fraudulent billings. Dr. X altered
  • The term of the rental agreement is for        II. Theft or Embezzlement in Connection             patient records in an attempt to cover up the
not less than one year.                            With Health Care (18 U.S.C. 669)                    improprieties.
  • The aggregate rental charge is set in
advance, is consistent with fair market value,     Description of Unlawful Conduct                     V. Mail and Wire Fraud (18 U.S.C. 1341,
and is not determined in a manner that takes         It is a crime to knowingly and willfully          1343)
into account the volume or value of any            embezzle, steal or intentionally misapply any
referrals or business otherwise generated          of the assets of a health care benefit program.     Description of Unlawful Conduct
between the parties for which payment may          Note that this law applies not only to Federal         It is a crime to use the mail, private
be made in whole or in part under Medicare         health care programs, but to most other types       courier, or wire service to conduct a scheme
or a State health care program.                    of health care benefit programs as well.            to defraud another of money or property. The
  • The aggregate space rented does not                                                                term ‘‘wire services’’ includes the use of a
exceed that which is reasonably necessary to       Penalty for Unlawful Conduct                        telephone, fax machine or computer. Each
accomplish the commercially reasonable                The penalty may include the imposition of        use of a mail or wire service to further
business purpose of the rental.                    a fine, imprisonment of up to 10 years, or          fraudulent activities is considered a separate
36832                       Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

crime. For instance, each fraudulent claim           • Space rental;                               which the provider is otherwise not entitled
that is submitted electronically to a carrier        • Equipment rental;                           to payment. Examples of false claims for
would be considered a separate violation of          • Personal services and management            services or supplies that were not provided
the law.                                          contracts;                                       specifically as presented include, but are not
                                                     • Sale of practice;                           limited to:
Penalty for Unlawful Conduct                         • Referral services;                             • A claim for a service or supply that was
   The penalty may include the imposition of         • Warranties;                                 never provided.
a fine, imprisonment of up to 5 years, or            • Discounts;                                     • A claim indicating the service was
both.                                                • Employment relationships;                   provided for some diagnosis code other than
Examples                                             • Waiver of Part A co-insurance and           the true diagnosis code in order to obtain
                                                  deductible amounts;                              reimbursement for the service (which would
   1. Dr. X electronically submits claims to         • Group purchasing organizations;
the Medicare fiscal intermediary via his                                                           not be covered if the true diagnosis code
                                                     • Increased coverage or reduced cost          were submitted).
computer for office visits that he did not        sharing under a risk-basis or prepaid plan;
actually provide to Medicare beneficiaries.                                                           • A claim indicating a higher level of
                                                  and                                              service than was actually provided.
   2. Dr. X, a neurologist, knowingly                • Charge reduction agreements with health
submitted claims for tests that were not                                                              • A claim for a service that the provider
                                                  plans.                                           knows is not reasonable and necessary.
reasonable and necessary and intentionally
upcoded office visits and Electromyograms to      Penalty for Unlawful Conduct                        • A claim for services provided by an
Medicare.                                            The penalty may include the imposition of     unlicensed individual.
                                                  a fine of up to $25,000, imprisonment of up         Knowingly—To ‘‘knowingly’’ present a
VI. Criminal Penalties for Acts Involving                                                          false or fraudulent claim means that the
                                                  to 5 years, or both. In addition, the provider
Federal Health Care Programs (42 U.S.C.                                                            provider: (1) has actual knowledge that the
                                                  can be excluded from participation in
1320a–7b)                                                                                          information on the claim is false; (2) acts in
                                                  Federal health care programs. The
Description of Unlawful Conduct                   regulations defining the aggravating and         deliberate ignorance of the truth or falsity of
                                                  mitigating circumstances that must be            the information on the claim; or (3) acts in
False Statements and Representations                                                               reckless disregard of the truth or falsity of the
                                                  reviewed by the OIG in making an exclusion
   It is a crime to knowingly and willfully:      determination are set forth in 42 CFR Part       information on the claim. It is important to
   • Make, or cause to be made, false             1001.                                            note the provider does not have to
statements or representations in applying or                                                       deliberately intend to defraud the Federal
benefits or payments under all Federal health     Examples                                         Government in order to be found liable under
care programs;                                      1. Dr. X accepted payments to sign             this Act. The provider need only
   • Make, or cause to be made, any false         Certificates of Medical Necessity for durable    ‘‘knowingly’’ present a false or fraudulent
statement or representation for use in            medical equipment for patients she never         claim in the manner described above.
determining rights to such benefit or             examined.                                           Deliberate Ignorance—To act in ‘‘deliberate
payment;                                            2. Home Health Agency disguises referral       ignorance’’ means that the provider has
   • Conceal any event affecting an               fees as salaries by paying referring physician   deliberately chosen to ignore the truth or
individual’s initial or continued right to        Dr. X for services Dr. X never rendered to       falsity of the information on a claim
receive a benefit or payment with the intent      Medicare beneficiaries or by paying Dr. X a      submitted for payment, even though the
to fraudulently receive the benefit or            sum in excess of fair market value for the       provider knows, or has notice, that
payment either in an amount or quantity           services he rendered to Medicare                 information may be false. An example of a
greater than that which is due or authorized;     beneficiaries.                                   provider who submits a false claim with
   • Convert a benefit or payment to a use                                                         deliberate ignorance would be a physician
other than for the use and benefit of the         Appendix C: Civil and Administrative             who ignores provider update bulletins and
person for whom it was intended;                  Statutes                                         thus does not inform his/her staff of changes
   • Present, or cause to be presented, a claim      This Appendix contains a description of       in the Medicare billing guidelines or update
for a physician’s service when the service        civil and administrative statutes related to     his/her billing system in accordance with
was not furnished by a licensed physician;        fraud and abuse in the context of health care.   changes to Medicare billing practices. When
   • For a fee, counsel an individual to          The Appendix is not intended to be a             claims for non-reimbursable services are
dispose of assets in order to become eligible     compilation of all Federal statutes related to   submitted as a result, the False Claims Act
for medical assistance under a State health       health care fraud and abuse. It is merely a      has been violated.
program, if disposing of the assets results in    summary of some of the more frequently              Reckless Disregard—To act in ‘‘reckless
the imposition of an ineligibility period for     cited Federal statutes.                          disregard’’ means that the provider pays no
the individual.                                                                                    regard to whether the information on a claim
                                                  I. The False Claims Act (31 U.S.C. 3729–         submitted for payment is true or false. An
Anti-Kickback Statute
                                                  3733)                                            example of a provider who submits a false
   It is a crime to knowingly and willfully                                                        claim with reckless disregard would be a
solicit, receive, offer, or pay remuneration of   Description of Unlawful Conduct
                                                                                                   physician who assigns the billing function to
any kind (e.g., money, goods, services):             This is the law most often used to bring a    an untrained office person without inquiring
   • For the referral of an individual to         case against a health care provider for the      whether the employee has the requisite
another for the purpose of supplying items or     submission of false claims to a Federal health   knowledge and training to accurately file
services that are covered by a Federal health     care program. The False Claims Act prohibits     such claims.
care program; or                                  knowingly presenting (or causing to be
   • For purchasing, leasing, ordering, or        presented) to the Federal Government a false     Penalty for Unlawful Conduct
arranging for any good, facility, service, or     or fraudulent claim for payment or approval.        The penalty for violating the False Claims
item that is covered by a Federal health care     Additionally, it prohibits knowingly making      Act is a minimum of $5,000 up to a
program.                                          or using (or causing to be made or used) a       maximum of $10,000 for each false claim
   There are a number of limited exceptions       false record or statement to get a false or      submitted. In addition to the penalty, a
to the law, also known as ‘‘safe harbors,’’       fraudulent claim paid or approved by the         provider could be found liable for up to three
which provide immunity from criminal              Federal Government or it agents, like a          times the amount unlawfully claimed.
prosecution and which are described in            carrier, other claims processor, or state
greater detail in the statute and related                                                          Examples
                                                  Medicaid program.
regulations (found at 42 CFR 1001.952 and at                                                          • A physician and his oncology clinic
www.hhs.gov/oig/ak/index.htm#OIG Safe             Definitions                                      knowingly submitted improper claims to
Harbor Regulations). Current safe harbors           False Claim—A false claim is a claim for       Medicare and Medicaid for services rendered
include:                                          payment for services or supplies that were       at the clinic by nonphysicians without a
   • Investment interests;                        not provided specifically as presented or for    physician’s supervision or attendance.
                            Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                          36833

   • Dr. X intentionally upcoded office visits    to receive services and have tests performed      Exceptions Relating to Other Compensation
and angioplasty consultations that were           that were not preventive care services and             Arrangements
submitted for payment to Medicare.                tests.                                              1. Rental of office space and rental of
   • Dr. X, a podiatrist, knowingly submitted       2. Dr. X hired Physician Assistant P to              equipment;
claims to the Medicare and Medicaid               provide services to Medicare and Medicaid           2. Bona fide employment relationship;
programs for non-routine surgical procedures      beneficiaries without conducting a                  3. Personal service arrangement;
when he actually performed routine, non-          background check on P. Had Dr. X performed          4. Remuneration unrelated to the provision
covered services such as the cutting and          a background check by reviewing the HHS–               of designated health services;
trimming of toenails and the removal of corns     OIG List of Excluded Individuals/Entities, Dr.      5. Physician recruitment;
and calluses.                                     X. would have discovered that he should not         6. Isolated transactions;
                                                  hire P because P is excluded for a period of        7. Certain group practice arrangements
II. Civil Monetary Penalties Law (42 U.S.C.                                                              with a hospital (pre-1989); and
                                                  5 years from participation in Federal health
1320a–7a)                                                                                             8. Payments by a physician for items and
                                                  care programs.
Description of Unlawful Conduct                     3. Dr. X and his oximetry company billed             services
   The Civil Monetary Penalties Law (CMPL)        Medicare for pulse oximetry that they knew        Penalty for Unlawful Conduct
is a comprehensive statute that covers an         they did not perform and services that had
                                                  been intentionally upcoded.                          Violations of the statute subject the billing
array of fraudulent and abusive activities and                                                      entity to denial of payment for the designated
is very similar to the False Claims Act. For      III. Limitations on Certain Physician             health services, refund of amounts collected
instance, the CMPL prohibits a health care        Referrals (‘‘Stark Laws’’) (42 U.S.C. 1395nn)     from improperly submitted claims, and a
provider from presenting, or causing to be                                                          civil monetary penalty of up to $15,000 for
presented, claims for services that the           Description of Unlawful Conduct
                                                                                                    each improper claim submitted. Physicians
provider ‘‘knows or should know’’ were:             Physicians (and immediate family                who violate the statute may also be subject
   • Not provided as indicated by the coding      members) who have an ownership,                   to additional fines per prohibited referral. In
on the claim;                                     investment or compensation relationship           addition, providers that enter into an
   • Not reasonable or necessary;                 with an entity providing ‘‘designated health      arrangement that they know or should know
   • Furnished by a person who is not             services’’ are prohibited from referring          circumvents the referral restriction law may
licensed as a physician (or who was not           patients for these services where payment         be subject to a CMP of up to $100,000 per
properly supervised by a licensed physician);     may be made by a Federal health care              arrangement.
   • Furnished by a licensed physician who        program unless a statutory or regulatory          Examples
obtained his or her license through               exception applies. An entity providing a
misrepresentation of a material fact (such as     designated health service is prohibited from         1. Dr. A worked in a medical clinic located
cheating on a licensing exam);                    billing for the provision of a service that was   in a major city. She also owned a free
   • Furnished by a physician who was not                                                           standing laboratory located in a major city.
                                                  provided based on a prohibited referral.
certified in the medical specialty that he or                                                       Dr. A referred all orders for laboratory tests
                                                  Designated health services include: clinical
she claimed to be certified in; or                                                                  on her patients to the laboratory she owned.
                                                  laboratory services; physical therapy
   • Furnished by a physician who was                                                                  2. Dr. X agreed to serve as the Medical
                                                  services; occupational therapy services;
excluded from participation in the Federal                                                          Director of Home Health Agency, HHA for
                                                  radiology services, including magnetic            which he was paid a sum substantially above
health care program to which the claim was        resonance imaging, axial tomography scans,        the fair market value for his services. In
submitted.                                        and ultrasound services; radiation therapy        return, Dr. X routinely referred his Medicare
   Additionally, the CMPL contains various        services and supplies; durable medical            and Medicaid patients to HHA for home
other prohibitions, including:                    equipment and supplies; parenteral and            health services.
   • Offering remuneration to a Medicare or       enteral nutrients, equipment and supplies;           3. Dr. Y received a monthly stipend of $500
Medicaid beneficiary that the person knows        prosthetics, orthotics, prosthetic devices and    from a local hospital to assist him in meeting
or should know is likely to influence the         supplies; home health services; outpatient        practice expenses. Dr. Y performed no
beneficiary to obtain items or services billed    prescription drugs; and inpatient and             specific service for the stipend and had no
to Medicare or Medicaid from a particular         outpatient hospital services.                     obligation to repay the hospital. Dr. Y
provider; and                                       New regulations clarifying the exceptions       referred patients to the hospital for in-patient
   • Employing or contracting with an             to the Stark Laws are expected to be issued       surgery.
individual or entity that the person knows or     by HCFA during the summer of 2000. Current
should know is excluded from participation        exceptions articulated within the Stark Laws      IV. Exclusion of Certain Individuals and
in a Federal health care program.                 include the following, provided all               Entities From Participation in Medicare and
   The term ‘‘should know’’ means that a          conditions of each exception as set forth in      Other Federal Health Care Programs (42
provider: (1) Acted in deliberate ignorance of    the statute and regulations are satisfied.        U.S.C. §1320a–7)
the truth or falsity of the information; or (2)   Exceptions for Ownership or Compensation          Mandatory Exclusion
acted in reckless disregard of the truth or            Arrangements
falsity of the information. The Federal                                                               Individuals or entities convicted of the
                                                    1. Physician’s services;                        following conduct must be excluded from
Government does not have to show that a             2. In-office ancillary services; and
provider specifically intended to defraud a                                                         participation in Medicare and Medicaid for a
                                                    3. Prepaid plans.                               minimum of five years:
Federal health care program in order to prove
a provider violated the statute.                  Exceptions for Ownership or Investment in           • A criminal offense related to the delivery
                                                       Publicly Traded Securities and Mutual        of an item or service under Medicare or
Penalty for Unlawful Conduct                           Funds                                        Medicaid;
  Violation of the CMPL may result in a             1. Ownership of investment securities             • A conviction under Federal or State law
penalty of up to $10,000 per item or service           which may be purchased on terms              of a criminal offense relating to the neglect
and up to three times the amount unlawfully            generally available to the public;           or abuse of a patient;
claimed. In addition, the provider may be           2. Ownership of shares in a regulated             • A conviction under Federal or State law
excluded from participation in Federal health          investment company as defined by             of a felony relating to fraud, theft,
care programs. The regulations defining the            Federal law, if such company had, at the     embezzlement, breach of fiduciary
aggravating and mitigating circumstances               end of the company’s most recent fiscal      responsibility or other financial misconduct
that must be reviewed by the OIG in making             year, or on average, during the previous     against a health care program financed by
an exclusion determination are set forth in 42         3 fiscal years, total assets exceeding       any Federal, State, or local government
CFR Part 1003.                                         $75,000,000;                                 agency; or
                                                    3. Hospital in Puerto Rico;                       • A conviction under Federal or State law
Examples                                            4. Rural provider; and                          of a felony relating to unlawful manufacture,
  1. Dr. X paid Medicare and Medicaid               5. Hospital ownership (whole hospital           distribution, prescription, or dispensing of a
beneficiaries $20 each time they visited him           exception).                                  controlled substance.
36834                       Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices

   If there is one prior conviction, the           to report matters involving fraud, waste and      In addition, if the provider is obligated to
exclusion will be for 10 years. If there are two   mismanagement in any departmental                 enter into an Integrity Agreement (IA) as part
prior convictions, the exclusion will be           program to the OIG. The OIG maintains a           of the resolution of a voluntary disclosure,
permanent.                                         hotline that offers a confidential means for      there are three benefits the provider might
Permissive Exclusion                               reporting these matters.                          receive as a result of self-reporting:
                                                   Contacting the OIG Hotline                           • If the provider has an effective
   Individuals or entities may be excluded
                                                      By Phone: 1–800–HHS–TIPS (1–800–447–           compliance program and agrees to maintain
from participation in Federal health care
                                                        8477)                                        its compliance program as part of the False
programs for a minimum of 3 years if they
                                                      By E–Mail: HTips@os.dhhs.gov                   Claims Act settlement, the OIG may not even
meet any of the following criteria:
                                                      By Mail: Office of Inspector General           require an IA;
   • A criminal offense related to the delivery
                                                      Department of Health and Human Services           • In cases where the provider’s own audits
of an item or service under Medicare or
Medicaid;                                             Attn: HOTLINE,                                 detected the disclosed problem, the OIG may
                                                      330 Independence Ave., S.W.,                   consider alternatives to the IA’s auditing
   • A misdemeanor related to fraud, theft,
                                                      Washington, D.C. 20201                         provisions. The provider may be able to
embezzlement, breach of fiduciary
responsibility or other financial misconduct          When contacting the Hotline, please            perform some or all of its billing audits
                                                   provide the following information to the best     through internal auditing methods rather
against a health care program financed by
                                                   of your ability:                                  than be required to retain an independent
any Federal, State, or local government
agency;                                            •	 Type of Complaint:                             review organization to perform the billing
                                                      Medicare Part A                                review; and
   • Interference with, or obstruction of, any
investigation into certain criminal offenses;         Medicare Part B                                   • Self-disclosing can help to demonstrate a
                                                      Indian Health Service
   • A misdemeanor related to the unlawful                                                           provider’s trustworthiness to the OIG and
                                                      TRICARE                                        may result in the OIG determining that they
manufacture, distribution, prescription or
                                                      Other (please specify)                         can sufficiently safeguard the Federal health
dispensing of a controlled substance;
   • Exclusion or suspension under a Federal       •	 HHS Department or program being affected       care programs through an IA without the
or State health care program;                           by your allegation of fraud, waste, abuse/   exclusion remedy for a material breach,
   • Submission of claims for excessive                 mismanagement:                               which is typically included in an IA.
charges, unnecessary services or services that        Health Care Financing Administration              Specific instructions on how to submit a
were of a quality which fails to meet                   (HCFA)                                       voluntary disclosure under the Provider Self-
professionally recognized standards of health         Indian Health Service                          Disclosure Protocol can be found on the
care;                                                 Other (please specify)                         OIG’s internet site at www.hhs.gov/oig or in
   • Violating the CMP law or the statute          Please provide the following information.         the Federal Register at 63 FR 58399.
entitled ‘‘Criminal Penalties for Acts                  (However, if you would like your referral       The Provider Self-Disclosure Protocol can
Involving Federal Health Care Programs’’;               to be submitted anonymously, please          also be a useful tool for conducting baseline
   • Ownership or control of an entity by a             indicate such in your correspondence or      audits. The protocol details the OIG’s views
sanctioned individual or immediate family               phone call.)                                 on the appropriate elements of an effective
member (spouse, natural or adoptive parent,           Your Name
                                     investigative and audit plan for providers.
child, sibling, stepparent, stepchild,                Your Street Address
                           Physician practices can use the self-
stepbrother or stepsister, in-laws,                   Your City/County
                              disclosure protocol as a model for conducting
grandparent and grandchild);                          Your State
                                    audits and self-assessments.
   • Failure to disclose information required         Your Zip Code
                                    In relying on the protocol for audit design
by law;                                               Your email Address
                            and sample selection, a physician practice
   • Failure to supply claims payment              • Subject/Person/Business/Department that         should pay close attention to the sections on
information; and                                        allegation is against.                       self-assessment and sample selection. These
   • Defaulting on health education loan or           Name of Subject                                two sections provide valuable guidance
scholarship obligations.                              Title of Subject                               regarding how these two functions should be
   The above list is not all inclusive.               Subject’s Street Address                       performed.
Additional grounds for permissive exclusion           Subject’s City/County                             The self-assessment section of the protocol
are detailed in the statute.                          Subject’s State                                contains information that can be applied to
Examples                                              Subject’s Zip Code                             audit design. Self-assessment is an internal
                                                   •	 Please provide a brief summary of your         financial assessment to determine the
   1. Nurse R was excluded based on a                                                                monetary impact of the matter. The approach
conviction involving obtaining dangerous                allegation and the relevant facts.
                                                                                                     of a review can include reviewing either all
drugs by forgery. She also altered                 II. Provider Self-Disclosure Protocol             claims affected or a statistically valid sample
prescriptions that were given for her own                                                            of the claims.
health problems before she presented them to          The recommended method for a provider
                                                   to contact the OIG regarding potential fraud         Sample selection must include several
the pharmacist to be filled.                                                                         elements. These elements are drawn from the
   2. Practice T was excluded due to its           or abuse issues that may exist in the
                                                   provider’s own organization is through the        Government sampling program known as
affiliation with its excluded owner. The                                                             RAT–STATS.1 All of these elements are set
practice owner, excluded from participation        use of the Provider Self-Disclosure Protocol.
                                                   This program encourages providers to              forth in more detail in the Provider Self-
in the Federal health care programs for                                                              Disclosure Protocol, but the elements
soliciting and receiving illegal kickbacks, was    voluntarily disclose irregularities in their
                                                   dealings with Federal health care programs.       include: (1) Sampling unit, (2) sampling
still participating in the day-to-day                                                                frame, (3) probe sample, (4) sample size, (5)
operations of the practice after his exclusion     While voluntary disclosure under the
                                                   protocol does not guarantee a provider            random numbers, (6) sample design and (7)
was effective.                                                                                       missing sample items. All of these sampling
                                                   protection from civil, criminal or
Appendix D: OIG–HHS Contact                        administrative actions, the fact that a           elements should be clearly documented by
Information                                        provider voluntarily disclosed possible           the physician practice and compiled in the
                                                   wrongdoing is a mitigating factor in OIG’s        format set forth in the Provider Self-
I. OIG Hotline Number                              recommendations to prosecuting agencies.          Disclosure Protocol. Use of the format set
   One method for providers to report              Self-reporting offers providers the               forth in the Provider Self-Disclosure Protocol
potential fraud, waste, and abuse problems is      opportunity to minimize the potential cost        will help physician practices to ensure that
to contact the OIG Hotline number. All HHS         and disruption of a full-scale audit and          the elements of their internal audits are in
and contractor employees have a                    investigation, to negotiate a fair monetary       conformance with OIG standards.
responsibility to assist in combating fraud,       settlement, and to avoid an OIG permissive
waste and abuse in all departmental                exclusion preventing the provider from doing       1 Available through the OIG website at http://

programs. As such, providers are encouraged        business with Federal health care programs.       www.hhs.gov/oas/ratstat.html.
                            Federal Register / Vol. 65, No. 113 / Monday, June 12, 2000 / Notices                                         36835

III. Advisory Opinion Requests                       Office of Investigations (OI)                  provisions set forth in section 552b(c)(4)
   Health care professionals or others may         OIG List of Excluded Individuals/Entities        and 552b(c)(6). Title 5 U.S.C., amended.
request an advisory opinion from OIG on the        OIG News                                         The grant applications and the
following issues:                                  OIG Regulations                                  discussions could disclose confidential
   • What constitutes prohibited                   OIG Semi-Annual Report
                                                   OIG Workplan
                                                                                                    trade secrets or commercial property
‘‘remuneration’’ or payment under the anti-                                                         such as patentable material, and
kickback statute;                                  Health Care Financing Administration
   • Whether the arrangement or proposed                                                            material, and personal information
                                                   (www.hcfa.gov)                                   concerning individuals associated with
arrangement fits into a safe harbor to the anti-
kickback statute;                                    This website includes information on a         the grant applications, the disclosure of
   • What constitutes an inducement to             wide array of topics, including the following:   which would constitute a clearly
reduce or limit services to Medicare/              Medicare                                         unwarranted invasion of personal
Medicaid beneficiaries; and                          National Correct Coding Initiative             privacy.
   • Whether any activity or proposed                Intermediary-Carrier Directory
activity constitutes grounds for the                 Payment                                          Name of Committee: National Cancer
imposition of fraud and abuse sanctions.             Program Manuals                                Institute Special Emphasis Panel Cancer
   The OIG issues Advisory Opinions on               Program Transmittals & Memorandum              Education Grant (R25 application).
specific existing or proposed arrangements in        Provider Billing/HCFA Forms                      Date: June 28, 2000.
which the requesting party is engaged or in          Statistics and Data                              Time: 4 PM to 5 PM.
good faith intends to engage; the OIG does                                                            Agenda: To review and evaluate grant
                                                   Medicaid                                         applications.
not issue Advisory Opinions on hypothetical          HCFA Regional Offices
arrangements. Advisory Opinions will not be                                                           Place: Georgetown Holiday Inn,
                                                     Letters to State Medicaid Directors            Kaleidoscope Room, 2101 Wisconsin Ave,
issued on questions of fair market value or          Medicaid Hotline Numbers
whether an individual is a bona fide                                                                NW, Washington, DC 20007.
                                                     Policy & Program Information                     Contact Person: David E. Maslow, PhD,
employee. Advisory Opinions will be                  State Medicaid Contacts
binding only on the requesting party and the                                                        Scientific Review Administrator, Grants
                                                     State Medicaid Manual                          Review Administrator, Grants Review
OIG. Failure to seek an Advisory Opinion is          State Survey Agencies
not admissible as evidence of intent to                                                             Branch, Division of Extramural Activities,
                                                     Statistics and Data                            National Cancer Institute, National Institutes
violate the law.
                                                                                                    of Health, 6116 Executive Boulevard—Room
   Procedures for requesting an Advisory           HCFA Medicare Training
                                                                                                    8054, Bethesda, MD 20892–7405, 301/496–
Opinion are available on the OIG website at        (www.medicaretraining.com)
                                                                                                    2330.
www.hhs.gov/oig or at 42 CFR 1008.1                  This site provides computer-based training       This notice is being published less than 15
through 1008.59.                                   on the following topics:                         days prior to the meeting due to the timing
Appendix E: Carrier Contract                       HCFA 1500 Form
                                  limitations imposed by the review and
Information                                        Fraud & Abuse
                                   funding cycle.
                                                   ICD–9–CM Diagnosis Coding
                       (Catalogue of Federal Domestic Assistance
Medicare                                           Adult Immunization
                              Program Nos. 93.392, Cancer Construction;
  A complete list of contact information           Medicare Secondary Payer (MSP)
                  93.393, Cancer Cause and Prevention
(address, phone number, email address) for         Women’s Health
                                  Research; 93.394, Cancer Detection and
Medicare Part A Fiscal Intermediaries,             Front Office Management
                         Diagnosis Research; 93.395, Cancer
Medicare Part B Carriers, Regional Home            Introduction to the World of Medicare
           Treatment Research; 93.396, Cancer Biology
Health Intermediaries, and Durable Medical         Home Health Agency
                              Research; 93.397, Cancer Centers Support;
Equipment Regional Carriers can be found on        HCFA 1450 (UB92)
                                93.398, Cancer Research Manpower; 93.399,
the HCFA website at www.hcfa.gov/                                                                   Cancer Control, National Institutes of Health,
medicare/incardir.htm.                             Government Printing Office
                                                   (www.access.gpo.gov)                             HHS)
Medicaid                                                                                              Dated: June 5, 2000.
                                                     This site provides access to Federal laws
  Contact information (address, phone              and regulations pertaining to Federal health     LaVerne Y. Stringfield,
number, email address) for each state              care programs.                                   Director, Office of Federal Advisory
Medicaid carrier can be found on the HCFA                                                           Committee Policy.
website at www.hcfa.gov/medicaid/                  The U.S. House of Representatives Internet
                                                                                                    [FR Doc. 00–14745 Filed 6–9–00; 8:45 am]
mcontact.htm. In addition to a list of             Library (uscode.house.gov/usc.htm)
                                                                                                    BILLING CODE 4140–01–M
Medicaid carriers, the website includes              This site provides access to the United
contact information for each State survey          States Code, which contains laws pertaining
agency and the HCFA Regional Offices.              to Federal health care programs.
  Contact information for each state                                                                DEPARTMENT OF HEALTH AND
Medicaid Fraud Control Unit can be found           [FR Doc. 00–14703 Filed 6–9–00; 8:45 am]         HUMAN SERVICES
on the OIG website at www.hhs.gov/oig/oi/          BILLING CODE 4152–01–P
mfcu/index.htm.                                                                                     National Institutes of Health
Appendix F: Internet Resources                     DEPARTMENT OF HEALTH AND                         National Cancer Institute; Notice of
Office of Inspector General—U.S.                   HUMAN SERVICES                                   Meeting
Department of Health and Human Services                                                                Pursuant to section 10(a) of the
(www.hhs.gov/oig)                                  National Institute of Health
                                                                                                    Federal Advisory Committee Act, as
  This website includes a variety of                                                                amended (5 U.S.C. Appendix 2), notice
information relating to Federal health care        National Cancer Institute; Notice of
                                                   Closed Meeting                                   is hereby given of a meeting of the
programs, including the following:
                                                                                                    National Cancer Institute Board of
Advisory Opinions
                                    Pursuant to section 10(d) of the              Scientific Advisors.
Anti-Kickback Information
                         Federal Advisory Committee Act, as                  The meeting will be open to the
Compliance Program Guidance

Corporate Integrity Agreements

                                                   amended (5 U.S.C. Appendix 2), notice            public, with attendance limited to space
Fraud Alerts
                                      is hereby given of the following                 available. Individuals who plan to
Links to web pages for the:
                       meeting.                                         attend and need special assistance, such
  Office of Audit Services (OAS)                      The meeting will be closed to the             as sign language interpretation of other
  Office of Evaluation and Inspections (OEI)       public in accordance with the                    reasonable accommodations, should
